<html>
<title> - PROTECTING AMERICA'S COMPETITIVE EDGE ACT (S. 2198): FINDING, TRAINING, AND KEEPING TALENTED MATH AND SCIENCE TEACHERS</title>
<body><pre>[Senate Hearing 109-344]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-344
 
PROTECTING AMERICA'S COMPETITIVE EDGE ACT (S. 2198): FINDING, TRAINING, 
             AND KEEPING TALENTED MATH AND SCIENCE TEACHERS

=======================================================================

                                HEARING

                               BEFORE THE

       SUBCOMMITTEE ON EDUCATION AND EARLY CHILDHOOD DEVELOPMENT

                                 OF THE

          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

EXAMINING S. 2198, TO ENSURE THE UNITED STATES SUCCESSFULLY COMPETES IN 
  THE 21ST CENTURY GLOBAL ECONOMY, FOCUSING ON FINDING, TRAINING, AND 
               KEEPING TALENTED MATH AND SCIENCE TEACHERS

                               __________

                           FEBRUARY 28, 2006

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions






                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

26-353                 WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001






          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                   MICHAEL B. ENZI, Wyoming, Chairman
JUDD GREGG, New Hampshire            EDWARD M. KENNEDY, Massachusetts
WILLIAM H. FRIST, Tennessee          CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
RICHARD BURR, North Carolina         BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia              JAMES M. JEFFORDS, Vermont
MIKE DeWINE, Ohio                    JEFF BINGAMAN, New Mexico
JOHN ENSIGN, Nevada                  PATTY MURRAY, Washington
ORRIN G. HATCH, Utah                 JACK REED, Rhode Island
JEFF SESSIONS, Alabama               HILLARY RODHAM CLINTON, New York
PAT ROBERTS, Kansas

               Katherine Brunett McGuire, Staff Director
      J. Michael Myers, Minority Staff Director and Chief Counsel
                                 ------                                

       Subcommittee on Education and Early Childhood Development

                  LAMAR ALEXANDER, Tennessee, Chairman
JUDD GREGG, New Hampshire            CHRISTOPHER J. DODD, Connecticut
RICHARD BURR, North Carolina         TOM HARKIN, Iowa
JOHNNY ISAKSON, Georgia              JAMES M. JEFFORDS (I), Vermont
MIKE DeWINE, Ohio                    JEFF BINGAMAN, New Mexico
JOHN ENSIGN, Nevada                  PATTY MURRAY, Washington
ORRIN G. HATCH, Utah                 JACK REED, Rhode Island
JEFF SESSIONS, Alabama               HILLARY RODHAM CLINTON, New York
MICHAEL B. ENZI, Wyoming (ex         EDWARD M. KENNEDY, Massachusetts 
    officio)                             (ex officio)

                   Christine C. Dodd, Staff Director
                James M. Fenton, Minority Staff Director
                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                       TUESDAY, FEBRUARY 28, 2006

                                                                   Page

Alexander, Hon. Lamar, Chairman, Subcommittee on Education and 
  Early Childhood Development, opening statement.................     1
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia...     3
Luce, Tom, Assistant Secretary, Office of Planning, Evaluation, 
  and Policy Development, U.S. Department of Education, 
  Washington, DC.................................................     4
    Prepared statement...........................................     5
Enzi, Hon. Michael B., Chairman, Committee on Health, Education, 
  Labor, and Pensions, prepared statement........................    17
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts, prepared statement..............................    18
Vagelos, Roy P., retired chairman and chief executive officer, 
  Merck and Company, Inc., and member, Committee on Propsering in 
  the Global Economy of the 21st Century, Committee on Science, 
  Engineering, and Public Policy, Division on Policy and Global 
  Affairs, the National Academies, Bedminster, NJ; Mary Ann 
  Rankin, dean, College of Natural Sciences, University of Texas 
  at Austin, Austin, TX; Hai-Lung Dai, director, Penn Science 
  Teachers Institute, University of Pennsylvania, Philadelphia, 
  PA; Veronica Garcia, Secretary of Education, New Mexico 
  Department of Education, Santa Fe, NM; and Dolores Flanagan, 
  teacher, Burr Middle School, Hartford, CT......................    21
    Prepared statements of:
        Mr. Vagelos..............................................    22
        Ms. Rankin...............................................    27
        Mr. Dai..................................................    39
        Ms. Garcia...............................................    44
        Ms. Flanagan.............................................    48
Ensign, Hon. John, a U.S. Senator from the State of Nevada, 
  prepared statement.............................................    59

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Response to the questions of Senator Enzi by:
        Mr. Luce.................................................    63
        Mr. Dai..................................................    63
        Mr. Vagelos..............................................    64
    Response to questions of Senator Jeffords by Tom Luce........    65
    Questions of Senator Enzi for the second panel...............    66












PROTECTING AMERICA'S COMPETITIVE EDGE ACT (S. 2198): FINDING, TRAINING, 
             AND KEEPING TALENTED MATH AND SCIENCE TEACHERS

                              ----------                              


                       TUESDAY, FEBRUARY 28, 2006

                                       U.S. Senate,
Subcommittee on Education and Early Childhood Development, 
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:00 a.m., in 
Room 430, Dirksen Senate Office Building, Hon. Lamar Alexander 
[chairman of the subcommittee] presiding.
    Present: Senators Alexander, Isakson, Ensign, and Bingaman.

                 Opening Statement of Senator Alexander

    Senator Alexander. The hearing will come to order. This is 
a hearing of the Subcommittee on Education and Early Childhood 
Development of the Committee on Health, Education, Labor, and 
Pensions.
    I am glad that Senator Isakson of Georgia is here, as well. 
Senator Dodd is the ranking Democratic member of the committee 
and he will be here; and others, I suspect, will be coming in 
and out on this busy day. But we want to thank the witnesses 
for being here. Senator Isakson has had a long interest in 
these issues. He was Chairman of the State Board of Education 
in Georgia and we are delighted that he is taking an active 
role.
    This morning, we begin a series of two hearings on the 
education provisions of an act we call Protecting America's 
Competitive Edge, or PACE Act for short. The issue today really 
is brainpower. How does America keep its brainpower advantage, 
which is the way we keep our good jobs from going to China and 
India. It is the way we win the war on terror. It is the way we 
develop energy independence. It is the way we solve the health 
care crisis.
    We are a very fortunate country. We have 5 to 6 percent of 
all the people in the world, and last year, we produced about 
30 percent of all the money. A lot of things went into giving 
us that advantage, but none has been more important than our 
brainpower advantage; our educated workforce; our research; our 
great research universities; our community colleges; which help 
people go from one job to another and prepare for university. 
This is a subject that is on the minds of all of us.
    Our Chairman of the full committee, Mike Enzi, has made 
this issue, competitiveness, his major interest and he has 
already held two very useful hearings on the subject of 
competitiveness. First, we heard from Secretary Spellings of 
Education. Then we heard from a panel of innovative leaders 
from around the country. He has asked us to take the ball in 
this subcommittee a little further down the road, which is what 
we hope to do today.
    It is my hope that after we finish the hearings today and 
tomorrow, that the full committee will schedule a markup of the 
entire portion of the PACE Act that has been referred to this 
committee.
    I will have a full statement that I will submit to the 
record, but first, I want to make sure that I summarize where 
this act came from and what its status is in Congress today.
    Last May, Senator Jeff Bingaman, who is the ranking 
Democratic member of the Energy Committee and a member of this 
subcommittee, and I asked the National Academy of Sciences this 
question: what are the top 10 actions, in priority order, that 
Federal policymakers could take over the next decade to help 
the United States keep our advantage in science and technology? 
The National Academies of Science and Engineering and the 
Institute of Medicine invited 21 people, 20 of whom accepted, 
to answer the question. They were chaired by Norm Augustine, a 
member of the Academy of Engineering and the former Chair of 
Lockheed Martin. The group included three Nobel Laureates, 
university presidents, and a variety of people. In a very short 
period of time, they answered our question and they gave us 20 
specific recommendations in a report, that has gained a great 
deal of notoriety in the country, that is called, ``Rising 
Above the Gathering Storm.''
    Now, it is important to note that this isn't the first of 
such efforts. There already were Members of Congress, on both 
sides of the aisle, who for years have been focusing on this 
issue. There was another, at least one other important study, 
the Competitiveness Council, that Senator Ensign and Senator 
Lieberman have introduced legislation about. So we are all on 
the same train, really, headed in the same direction. We are 
not competing with one another. We are competing with the rest 
of the world.
    We, Senators Domenici and Bingaman and Mikulski and I, took 
the 20 recommendations in the Augustine report and turned it 
into the PACE Act. In other words, out of respect for the work 
that was done, we introduced all 20.
    The Energy Committee--those recommendations, the way the 
Senate works, have been spread around the Senate. The Energy 
Committee, under Senator Domenici's leadership, held a hearing 
earlier this month on eight of the provisions that were 
referred to their committee and they hope to report those to 
the Senate floor sometime during March.
    Today, we are going to focus on five more of the provisions 
that have to do with teachers. Tomorrow, we are going to focus 
on four other provisions that have to do with students. There 
are in the full committee, full Health, Education, Labor, and 
Pensions Committee, another 19 proposals out of this group of 
20. Some of them are subparts. Three are higher education, 16 
have to do with research and immigration. Hopefully, after 
everything gets through the HELP Committee, it will go to the 
Commerce Committee for 30 days. The Finance Committee has three 
other recommendations from this, including making permanent the 
research and development tax credit. So you can see there is a 
lot to do.
    So not only do we have a consensus document from the 
Academies, we have this PACE legislation, which now has 66, I 
believe, Senators--67 Senators as sponsors. That includes the 
Republican leader, Senator Frist, and the Democratic leader, 
Senator Reid, and the number of Republican and Democratic 
sponsors is nearly equally divided. So there is nothing else in 
the U.S. Senate today, and probably won't be this year, that 
commands such broad bipartisan support as the PACE legislation.
    Now we get down to work, and we want to hear specifically 
about the UTeach program at the University of Texas. We want to 
hear specifically about a proposal for providing scholarships 
of up to $20,000 per year for undergraduate students to attend 
a program like UTeach. We want to hear about support for 
universities to establish a Master's degree program for current 
teachers who need to strengthen their skills, about providing a 
$10,000 fellowship to teachers that participate in either of 
the aforementioned programs who then go teach for 5 years, in 
other words, a pay supplement on top of their local teacher's 
salary. And we want to talk about summer academies for 50,000 
teachers each year at our national laboratories and at 
universities.
    Tomorrow, we will be talking about Advanced Placement 
courses and tripling the number of students who succeed in 
them, about establishing residential high schools for science 
and math of the kind North Carolina has had for 20 years, about 
providing an opportunity for middle and high school students to 
participate in education programs at national laboratories, and 
about a clearinghouse for math and science materials.
    We have a distinguished panel today. We want to listen to 
you. We want to let you do most of the talking. We want to ask 
you some questions. We do it in two forms. The first witness, 
who I will introduce now, is Tom Luce from Texas, and then I 
will ask the other witnesses when we are finished with Mr. Luce 
if they will come up at that time.
    Senator Isakson, do you have anything you want to say 
before I introduce Mr. Luce?
    Senator Isakson. No. I am just delighted to welcome Dr. 
Luce. He and I met through Senator Sam Nunn about a year ago. 
We are delighted to have him at the Department and I am 
delighted to be with you today, Lamar.
    Senator Alexander. Thank you. Thank you, Johnny.
    Tom Luce has a distinguished history in Texas, and Texas is 
doing some really amazing things in elementary and secondary 
education. Last week, I was with Uri Treisman, I guess, from 
Dr. Rankin's department and he was telling the group of 
educators what had happened in the last 15 years and that if 
Texas were a nation, which it considers itself one, I know 
that, but if it were a nation and it submitted itself to the 
international studies of science and math, Texas students, so I 
am told, who are more than half African-American and Hispanic, 
did better on math and science in the 8th grade international 
comparisons than the 8th graders in most European countries. So 
that was a significant finding, one I hadn't heard before, and 
certainly is a great compliment to Mr. Luce and the group of 
business leaders who supported the last three or four governors 
of Texas in their standard efforts.
    Mr. Luce, we are anxious to hear your comments on the PACE 
Act. We are anxious to hear your comments on the President's 
proposals. It helps to have the National Academies' consensus 
document. It helps to have the 67 Senators. It really helps to 
have the President of the United States put competitiveness on 
the agenda the way the President did in the State of the Union 
address. We look forward to your comments.

STATEMENT OF TOM LUCE, ASSISTANT SECRETARY, OFFICE OF PLANNING, 
    EVALUATION, AND POLICY DEVELOPMENT, U.S. DEPARTMENT OF 
                   EDUCATION, WASHINGTON, DC

    Mr. Luce. Thank you so much, Mr. Chairman. I can't tell you 
what a pleasure it is to appear before you and Senator Isakson, 
in particular because of your long work in education and the 
State vineyards, so it is a real pleasure to be here today and 
it is very exciting to be here today, because as you say, to 
see 67 Senators signed onto a consensus report by the National 
Academy, to have the President make the comments he did in the 
State of the Union, and to have the Academy with their stamp of 
approval on significant recommendations is a real powerful 
moment for our Nation.
    I want to thank you in particular for the amount of work 
you have personally put into this. It was the first time I had 
heard homework sessions were held here in the Senate, but you 
held homework sessions and I learned a lot from the homework 
sessions and I appreciate it very much.
    What I am here to talk about today is not only the PACE 
legislation, but the President's American Competitiveness 
Initiative, and what we want to start off by saying is we are 
in total agreement with the Academy when they say the number 
one priority is to improve the K through 12 math and science 
pipeline of our Nation immediately. That is important not only 
for the next generation of Nobel Prize winners and our 
innovators, but also for every student who wants to 
successfully compete in the information age of the 21st 
century. An educated workforce in the information age is going 
to require more knowledge of math and science than I had when I 
graduated from high school.
    To address these needs, the President in the 
Competitiveness Initiative put forward a comprehensive program 
for the K through 12. It starts with a National Math Panel, 
which the Secretary plans to convene shortly, that would begin 
to help us inform better instruction of the K through 12 math 
system in our country. And then if Congress agrees to support 
this initiative, we would have $125 million to put behind 
better math and science instruction in K through 6. We also 
have a similar program for middle school that is also under the 
Math Now Initiative that would be, again, based upon the 
National Math Panel's findings of what are the right kind of 
interventions to bring our students up to grade level. And all 
of this will start within the month, we hope, with the National 
Math Panel.
    Another key initiative is in the high school level, where 
we support entirely the recommendation of the Academy with 
regard to enhancing the Advanced Placement program through 
incentives. We believe it is realistic to triple the number of 
students taking and passing Advanced Placement math and science 
courses. I have recently looked at data of the College Board 
and they tell us that there are 500,000 students in our country 
today who took the PSAT that, based upon that PSAT test, could 
take and pass Advanced Placement calculus today that are not 
enrolled in those courses. That is low-hanging fruit that we 
need to take advantage of through this Advanced Placement 
program.
    We also are going to move swiftly--Congress passed the 
Academic Competitiveness Council in its Deficit Reduction Act. 
We are going to move swiftly to convene that council to look at 
the $2.8 billion of math and science programs that exist today 
across the Government in all civilian agencies plus the 
Department of Defense, to coordinate those programs, to 
prioritize them, and to make sure that we are following the 
guidelines and principles of No Child Left Behind.
    So let me just conclude so I can address your questions 
that we feel very strongly that the right emphasis was placed 
on the K through 12 pipeline. I think that is an important 
statement by the Academy, which recognizes the importance of 
producing that and increasing that pipeline so that everybody 
in our country can enjoy that standard of living that we have 
enjoyed in the 20th century and in the 21st century.
    We look forward to working with the Senate and the House to 
find the right combination of measures. We think it is 
wonderful that so many people have put on the table various 
math and science proposals and we look forward to working with 
you to find that right combination. We believe that we have 
made a good start with the President's initiative, which will--
I want to emphasize in closing, what we are trying to do is 
take programs to national scale. We believe that we have had a 
sufficient amount of pilot programs, demonstration programs, 
and what we are looking to do is take something to scale so 
that we can immediately increase that pipeline so that we can 
remain as competitive as we are today.
    Thank you, Senator Alexander.
    [The prepared statement of Mr. Luce follows:]
                     Prepared Statement of Tom Luce
    Good morning. Thank you for inviting me here today. I want to begin 
by thanking Chairman Alexander and the members of the subcommittee for 
your leadership in recognizing the growing challenge to American 
competitiveness in the global economy of the 21st century, and for your 
efforts to drive home the importance of this issue for both Congress 
and the American people.
    If you think back over the past century, the world has made truly 
astounding progress in science, technology, engineering, and 
mathematics. And in virtually every field--from medicine, 
communications, transportation, agriculture, energy, and computers--
American innovation has led the way. More than any country on earth, 
our economic system rewards the ambition, imagination, and hard work 
that generate new ideas and new inventions.
    But another key to innovation is education, and I don't think it's 
a coincidence that the world leader in technology, with just 6 percent 
of the world's population, continues to graduate more than \1/5\ of the 
world's doctorates in science and engineering. Or that 38 of the 
world's 50 leading research institutions are in the United States.
             as world catches up, u.s. risks falling behind
    At the same time, there is no doubt that the world is catching up. 
The spread of political freedom across the globe with the end of the 
Cold War, combined with the communications revolution brought by the 
Internet, have quickened the pace of innovation and dramatically 
increased global economic competition. As Commerce Secretary Carlos 
Gutierrez has said to me, ``We've won the Cold War. Capitalism 
prevailed, and we have 3 billion more competitors. Now we just need to 
run faster!''
    Increased global competition benefits both the United States and 
the world. But it does present new challenges. Evidence of these new 
challenges is not hard to find. In 2005, a majority of the top 10 
recipients of patents from the U.S. Patent and Trademark Office were 
foreign-owned companies. Over the past 15 years we have gone from a 
leading exporter of high-tech products to a net importer of those 
products. In addition, America's share of the world's science and 
engineering doctorates is expected to fall to 15 percent by 2010.
    Moving further down the educational pipeline into our elementary 
and secondary schools, the United States also appears to be losing 
ground. Even though the 1983 Nation At Risk report recommended a 
minimum of 3 years of math and 3 years of science for all high school 
students, today just 22 States and the District of Columbia require at 
least this much math and science to graduate from high school. And 
there are plenty of data suggesting that we are paying a high price for 
this delay in putting a stronger emphasis on math and science in our 
schools.
    Nearly half of our 17-year-olds do not score at the Basic level on 
the National Assessment of Educational Progress--the minimum level of 
math skills required to apply for a production associate's job at a 
modern automobile plant. American 15-year-olds ranked 24th out of 29 
developed nations in mathematics literacy and problem-solving on the 
most recent Program for International Student Assessment test. And just 
7 percent of America's 4th and 8th graders reached the Advanced level 
on the 2003 Trends in International Math and Science Study (TIMSS). By 
comparison, 38 percent of Singapore's 4th graders and 44 percent of its 
8th graders scored at the Advanced level on TIMSS. Our students are not 
just failing to keep up with their international peers; they also are 
not getting the preparation they need to succeed in the workforce or in 
our colleges and universities. Less than half of our high school 
graduates are ready for college-level math and science.
    These data make a strong case that if we want to maintain our 
competitive edge in the global economy, we need to take action now. As 
the U.S. Chamber of Commerce recently noted, in its State of American 
Business report describing the challenge of remaining competitive in a 
global economy, ``These are not academic questions for think tank 
futurists in ivory towers. They are ``here and now'' questions that 
demand serious attention this year.''
                  american competitiveness initiative
    I believe the Chamber, the Business Roundtable, the National 
Association of Manufacturers, and others in the business community have 
got it exactly right. We need to improve math and science education 
right now, this year, so that in the future, all students have the 
skills they need to be successful in higher education and the 
workplace. And we need to ensure that all students have the skills they 
need to enter the pipeline of future scientists, engineers, and 
mathematicians. This is why President Bush has proposed his American 
Competitiveness Initiative (ACI), which includes $380 million in new 
funding to improve the quality of math and science education in our 
elementary and secondary schools, bringing the total the Department 
spends on math-science to almost $1 billion.
    The ACI would fund several activities designed to strengthen math 
and science education from kindergarten through grade 12. The Math Now 
for Elementary School Students initiative would provide $125 million in 
competitive awards to implement proven practices in math instruction 
that focus on preparing students in elementary school for more rigorous 
courses in middle and high school. In particular, our proposal 
emphasizes the importance of teaching and learning algebraic concepts 
in elementary school, so that students have the foundation they need to 
take and pass algebra. Algebra is a true ``gateway'' course for 
students going into postsecondary education, and ultimately the 
workforce, as demonstrated by Department data showing that 83 percent 
of students who took algebra and geometry went to college within 2 
years of high school graduation, while only 36 percent of students who 
did not take these critical math courses enrolled in postsecondary 
education.
    A companion proposal, Math Now for Middle School Students, would 
focus $125 million on identifying and implementing research-based 
interventions for middle school students who have fallen behind in 
mathematics. This competitive grant initiative is similar to the 
Striving Readers program, and reflects the President's determination 
that struggling students receive the extra help they need to succeed in 
math.
    Both Math Now proposals would be informed by the work of the 
National Math Panel, which Secretary Spellings will move quickly to 
create this year. The Panel will work to identify the essential 
principles, practices, and components of effective mathematics 
instruction, and its recommendations will be a key consideration in 
making awards under the Math Now proposals. In addition, our 2007 
request includes $10 million to help disseminate the Panel's findings 
and put its recommendations to work in K-12 classrooms nationwide.
                           advanced placement
    At the high school level, the key ACI proposal--and one that is 
shared by the PACE-Education Act--is $90 million in new funding to 
expand teacher training under the Advanced Placement Incentive program, 
with an emphasis on AP instruction in math, science, and critical 
foreign languages. In combination with State and private matching 
funds, the proposal would train 70,000 teachers over the next 5 years 
to teach math, science, and critical foreign languages in AP and 
International Baccalaureate (IB) programs. New awards would be targeted 
to schools with high concentrations of low-income students that 
otherwise typically do not offer AP or IB courses, helping these 
schools to train the next generation for the global economy of the 21st 
century.
    The potential impact of expanded AP and IB offerings is 
demonstrated by a College Board study of students whose scores on the 
Preliminary SAT (PSAT) suggest they have the potential of earning a 3, 
4, or 5, which is generally considered a ``passing score,'' on an AP 
exam if they had the opportunity to take one. These data suggest that 
the number of students in Tennessee who would be likely to pass AP 
tests in subjects like Calculus, Chemistry, Physics, and Biology is 5 
to 10 times greater than the number of students currently achieving 
passing grades in these subjects. This is why, for example, the College 
Board estimates that in 2004 there were nearly 500,000 high school 
students whose PSAT scores indicated that they were ready for AP 
Calculus but who did not take the course for whatever reason.
    This is strong evidence that the President's AP proposal could help 
significantly increase the number and percentage of high school 
graduates who not only are prepared for college-level math and science, 
but also have already passed college-level exams in high school. Our 
long-term goal is to increase the number of students taking AP-IB exams 
in math, science, and critical foreign languages from 380,000 today to 
1.5 million in 2012, and to triple the number of students passing these 
tests to 700,000 by 2012.
    Another ACI proposal that would help strengthen math and science 
education in our high schools is the request for $25 million to create 
an Adjunct Teacher Corps. This initiative would encourage experienced 
professionals with subject-matter expertise, particularly in math and 
science, to teach in secondary schools through such arrangements as 
part-time instruction, teaching while on leave from their regular jobs, 
or providing instruction online. There is no question that there is 
tremendous demand from schools for the kind of expertise that could be 
made immediately available through the Adjunct Teacher Corps. 
Department data show, for example, that nearly two-thirds of all school 
districts report that recruiting qualified science teachers is a 
significant challenge, and over 90 percent of districts with high 
percentages of minority students reported difficulty in attracting 
highly qualified applicants in math and science.
                     need to spend better, not more
    I know there has been some concern expressed that we need to invest 
more in improving math and science education, and in filling the 
pipeline of teachers and researchers in science, technology, 
engineering, and mathematics. I also know that the PACE-Education Act 
proposes a wide range of new programs designed for this purpose.
    As you heard from Secretary Spellings, we believe that the 
combination of existing programs and the new resources provided by the 
American Competitiveness Initiative are sufficient to meet our national 
needs. The resources are there.
    That's not to say, however, that we couldn't spend those resources 
better. According to a GAO report, 13 different government agencies are 
spending about $2.8 billion on 207 different programs for math and 
science education, so we should look closely at the effectiveness of 
all of the critical investments for this purpose.
    This is why the President is proposing $5 million for an Evaluation 
of Mathematics and Science Programs that would build on the work of the 
Academic Competitiveness Council already created by the Deficit 
Reduction Act of 2005. The additional funding is needed to bring a more 
rigorous approach to assessing Federal elementary and secondary math 
and science programs, and, when appropriate, to permit examination of 
the extent to which these programs reflect the core accountability 
principles of No Child Left Behind (NCLB).
          nclb supports improved math and science instruction
    It is important to recognize that our No Child Left Behind (NCLB) 
reforms have already been working to improve both teacher quality and 
instruction in math and science. For example, the implementation of 
reading and math assessments, beginning this year, for all students in 
grades 3-8 will for the first time ensure that parents, teachers, and 
principals know how well our schools and students are performing in 
math each year. And in 2 years, States will put in place science 
assessments as well.
    We also are making considerable progress under NCLB in addressing 
the issue of teacher quality. The law requires all teachers in core 
subjects to be highly qualified by the end of the current school year 
and, while we know that not every State and district will hit that mark 
this spring, we believe the vast majority will be very close, and we 
are working with them to ensure that they will reach this goal as soon 
as possible.
    In addition, States are moving to ensure that, in accordance with 
NCLB, minority and low-income students are not taught by inexperienced, 
unqualified, or out-of-field teachers at higher rates than other 
children. This is absolutely critical for improving instruction in 
fields like math and science, which often are taught by out-of-field 
teachers in urban and rural areas alike. For example, an analysis by 
the Education Trust-West found that 44 percent of math classes in 
California's high-poverty high schools are taught by teachers without a 
certification in that field. The story is even worse in California's 
high-poverty middle-schools, where more than 90 percent of math classes 
are taught by a teacher without a major or minor in mathematics.
    The President's 2007 budget includes $2.9 billion to help States 
meet NCLB teacher quality requirements, and school districts also are 
required to use 5 percent of their title I allocations, or about $624 
million in fiscal year 2007, for professional development intended to 
ensure that all teachers are highly qualified. In addition, the Teacher 
Incentive Fund, funded for the first time in 2006, will encourage 
States and districts to provide financial incentives to teachers who 
help improve achievement in our highest-poverty schools.
    Congress also recently acted in approving the Deficit Reduction Act 
of 2005 to provide critical incentives for postsecondary students to 
study math and science, and for qualified graduates to teach those 
subjects in our public schools. For example, this fall the new SMART 
Grants program will begin providing additional financial support to 
college students majoring in science, technology, engineering, and 
mathematics. And Congress made permanent a provision providing up to 
$17,500 in loan forgiveness for highly qualified math and science 
teachers serving low-income communities.
                               conclusion
    In conclusion, while we are making good progress through the broad 
tools of No Child Left Behind, it is clear that we need to jumpstart 
improvement in math and science education through the American 
Competitiveness Initiative, just as the President's Reading First 
initiative 4 years ago helped spur more rigorous reading instruction. 
The ACI represents a comprehensive, measured approach to improving math 
and science education in our public schools and building a competitive 
workforce for our 21st century economy. It would draw on proven 
instructional methods to prepare elementary school students for more 
rigorous courses in middle and high school, help students who have 
fallen behind in middle school to catch up, raise expectations for high 
school students to take and pass challenging AP and IB courses, and 
streamline Federal math and science education programs and align them 
with NCLB accountability principles.
    Finally, let me again express my appreciation for the leadership 
provided by the Chairman and other members of the subcommittee on the 
critical issue of improving math and science education. The members of 
this subcommittee obviously ``get it'' when it comes to the importance 
of math and science to our future competitiveness and prosperity, and I 
hope that your efforts will help change our culture so that all 
Americans, and especially our young people, ``get it'' as well.
    Thank you, and I will be happy to answer any questions.

    Senator Alexander. Thank you very much, Mr. Luce.
    Mr. Luce, I am very pleased with the President's proposals 
and I am especially pleased of where he places this on his 
agenda, because I know very well that the President, not the 
Senate, is the Nation's agenda setter. So when you and the 
President speak as he is doing of this, this helps us with our 
job. We will look carefully at the proposals he has made and 
that you have made about K through 12. I agree that the 
Advanced Placement discussions, which we will be having more of 
tomorrow with representatives of the Department, and Gaston 
Caperton, and Peter O'Donnell, I think, is coming tomorrow from 
Dallas, so that program was pioneered in Texas. You know about 
it? We can talk about that tomorrow.
    But there are four or five provisions that were in the PACE 
report that are not in the President's recommendations. I don't 
expect you--having been in your shoes before, I know we all 
work within a budget and we all support the budget if we are in 
the administration, but I think it is at least fair to ask you, 
because you have some particular knowledge of some of these 
programs, about the value of the programs, not whether the 
administration is ready to fund them or support them.
    For example, the UTeach program at the University of Texas, 
are you familiar with that program and what is your opinion of 
it?
    Mr. Luce. I am. I have spent a great deal of time with Dean 
Rankin myself. I have met with some of the students myself. It 
is a superb program. We simply, in the business, as you said, 
of setting priorities, we felt it was important to embrace 
totally the Advanced Placement program, not just because of the 
test taking of students, but to immediately help to train 
existing teachers, 70,000 teachers, to give them more 
professional development.
    As you know, we lack a great deal in terms of content 
knowledge of our existing teacher corps. The UTeach program, of 
course, is working on our future teacher corps. We felt we had 
to address immediately to upgrade the content knowledge of our 
235,000, approximately, K through 12 math and science teachers, 
and that doesn't count elementary school teachers. So we just 
simply chose to let us focus first on the existing teacher 
corps. But the UTeach program is a wonderful program.
    Senator Alexander. Is it possible that in your review, I 
think you said the number is $2.8 billion of funding that now 
exists for math and science throughout the Federal Government?
    Mr. Luce. And that doesn't count the Defense Department.
    Senator Alexander. So is it possible that in your review of 
that, that we might find that the UTeach program was a superior 
program to some existing program and that that might free up 
funds which might be available for it?
    Mr. Luce. We hope that that prioritization will start as 
soon as the council is convened. What we plan to do first is to 
make sure that existing programs are really aligned behind No 
Child Left Behind. For instance, what we have found already is 
that most of those programs do not have an assessment mechanism 
in them, nor are they addressed to the needs of teachers who 
have not reached highly qualified teacher status, nor are they 
directed toward schools that are not making adequate yearly 
progress.
    So what we want to do is make sure that those immediate 
changes can be made, then start to evaluate the effectiveness 
of each program. That is the reason why we asked for funding 
for that process of $5 million, so we could do more ongoing 
evaluation to try to make sure, do we need to shift how some of 
that money, not only how it is being spent in accordance with 
No Child Left Behind, but maybe to emphasize new programs.
    Senator Alexander. One of the recommendations in the PACE 
report gets at the persistent problem of a lack of what we call 
differential pay, paying outstanding teachers more, teachers 
with a special need more. The proposal is to take graduates 
such as those who might come from the UTeach program or current 
teachers who earn a Master's degree and give them a National 
Science Foundation fellowship of $10,000 a year for 5 years if 
they agree to teach math and science in an inner-city school. 
Does that sound like a worthy idea to you, something that might 
end up on a priority list 1 day?
    Mr. Luce. Clearly, Senator, I think we all have to address 
the issue of differentiated pay for math and science teachers. 
We know there is a shortage and there will be a shortage, and 
that is the reason why we were so supportive of Congress 
creating the Teacher Incentive Fund, so that we can help 
incentivize programs that reward teachers in different areas, 
reward teachers for additional duties and responsibilities, and 
incentivize them to move to our higher-need schools, and we 
will be using the Teacher Incentive Funds, for instance, as a 
way of doing that.
    In addition, as you know, in the Advanced Placement 
program, there is a great deal of incentives. So we hope to 
start the concept of incentives and demonstrate that incentives 
can work and can be appreciated by all teachers for the 
additional service and work and good quality work that they do. 
I always said in Texas, a great teacher deserves a great 
salary.
    Senator Alexander. Thank you.
    Senator Isakson.
    Senator Isakson. Thank you, Senator Alexander. I appreciate 
very much your reference to No Child Left Behind. I really am 
very proud of President Bush for having stuck to his guns to 
see it through, its passage, and then stuck to his guns, and 
Dr. Margaret Spelling has done a great job, because I think one 
of the key things we can do for math and science improvement in 
terms of our students in the 21st century is building the 
foundation.
    Am I not correct that the assessments now for 2 successive 
years are showing conclusive evidence in inner-city minority 
poor and rural poor, improvement in terms of mathematics?
    Mr. Luce. Absolutely, as did the recent MAPE test. As these 
two Senators certainly know, we closed more gaps in terms of 
the achievement gap in the last 5 years than in the previous 30 
years, and those gaps are closing. I would point out, Senator, 
particularly in Georgia, there was a 14 percent gain in math 
achievement for African-American students just from 2002 to 
2005, and there was an 11 percent gain among Hispanic teachers. 
I would also point out, of course, that you all in Georgia can 
require--I can say you all, I guess, to you----
    Senator Isakson. It is in our dictionary, yes.
    Mr. Luce. It requires 3 years of math and 3 years of 
science. Unfortunately, we only have 22 States that do that.
    Senator Isakson. We moved, in the college prep diplomas in 
high school now, we have moved to 4 years of math required for 
acceptance into the university system.
    But my reason for mentioning that is it is going to take 
the sustained commitment on qualified teachers to accomplish 
the goals Lamar is trying to accomplish and all of us are 
trying to accomplish.
    Second, and this is a little bit offbeat, but I mentioned 
this to Senator Alexander and I want to mention it to you, and 
I have actually furthered my development of this idea, Lamar, 
since I talked to you about it. In reality, and I will use my 
State as an example, the difficulty in Advanced Placement 
instruction accessibility to students is not just the number of 
teachers, but it is also the number of teachers who are willing 
to live and reside in many places in the United States because 
they are rural, because they are long distances and those types 
of things. I think we are fooling ourselves dramatically if we 
think those 70,000 math and science teachers are going to go to 
work in some remote, yet beautiful areas of our country.
    But to that end, there is a demonstrated program in the 
United States military today called e-Army U., which Senator 
Bob Kerrey and I worked on a number of years ago, which is 
successfully delivering high-quality content to the sands of 
Iraq, to countries in inner-continental Africa, and around the 
world. We have got people graduating now from college over the 
Internet in our armed services. Might not we need to take a 
look at the Department being the source or a conduit for us to 
investigate the delivery of high-quality Advanced Placement 
content via the Internet to many of the areas, inner-city and 
rural in this country, where you are just not going to get the 
number of teachers you need to accomplish your goal?
    Mr. Luce. Well, I certainly totally agree with you in terms 
of the objective, and it remains for Congress, I guess, to 
decide whether the Department of Education should do that or 
the College Board people should do that. But I totally agree 
that the advances in videoconferencing today and the Internet, 
those tools really can enable us to take a top-quality course 
to every school in the country, and that is what is desperately 
needed. We have too many schools that do not offer Advanced 
Placement courses and those are particularly in urban, poor 
areas and in our rural areas. The Advanced Placement incentive 
program we have requested and I believe that the Academy calls 
for, as well, calls for that being done via the Internet and 
allows funds from the incentive program to go to developing and 
sending those programs to all those schools you mentioned.
    Senator Isakson. And I believe, in fact, I am sure I am 
right, the cost now to equip a classroom and have accessibility 
and interactive accessibility for students is less than the 
cost of an Advanced Placement teacher.
    Mr. Luce. I think that is absolutely correct, and I think 
we can also enhance the ability of teachers to deliver quality 
demonstrations, models, laboratories, etc., and I think there 
is a lot that can and should be done in that area. Our 
competitors, for instance, APEC, the Asian countries, have 
formed a Web site among themselves of math and science 
practices. There is also one that Tom Friedman constantly cites 
that was put out by China called, I think it is called Haymath, 
that does the same thing. We need to remain competitive with 
the rest of the world.
    Senator Isakson. Thank you, Mr. Chairman.
    Senator Alexander. Mr. Luce, following up on Senator 
Isakson's interest, I want to talk about programs for current 
teachers. In the PACE recommendations, there is a provision to 
provide grants to colleges and universities to partner with 
teacher preparation programs to develop Master's degree 
programs in math and science for current teachers, and there is 
a program to use national laboratories as well as colleges for 
summer training programs for teachers. For example, I know in 
Tennessee, we have had good success with Governor's schools for 
students and for teachers for 3 or 4 weeks.
    I add those two provisions to comments I heard last week at 
an Aspen Institute discussion of education by one of Dean 
Rankin's scholars, Uri Treisman, who is the Executive Director 
of the Charles A. Dana Center for Mathematics at the University 
of Texas at Austin. He was extremely complimentary of the work 
of the University of Phoenix in teacher preparation. He said 
they took it very seriously. They did it online. I, for one, go 
into that with some skepticism, wondering whether it will work, 
but I was very impressed with his comments.
    So I am wondering, as the Department thinks about current 
teachers and how to upgrade their skills as quickly as 
possible. We have proposals here in our joint proposals for 
Advanced Placement training. That would be one way . There are, 
also, two PACE proposals for Master's degrees and then one for 
summer academies at energy laboratories and at universities. 
And then I think Senator Isakson is saying to us, let us take 
advantage of very good online programs. Maybe if you have a 
series of summer institutes, it doesn't stop just with an 
institute, but there is continuing education and the online 
program comes in, in that way. Talk for a moment about how you 
look at online programs as a part of teacher training.
    Mr. Luce. Well, I personally have not--I don't have any 
personal knowledge of the University of Phoenix program, but I 
do know that, as you mentioned earlier, the UTeach program, of 
course, has been very successful in making sure that the 
students got the math and science content, but also received 
the training from the School of Education, but they received 
that in the Colleges of Natural Sciences, which I think is a 
wonderful model.
    I would say also that we would hope that we would get 
proposals into our grant program, such as the math and science 
partnerships, where States would say to us, we want to enhance 
professional development online. Not only are we going to ask 
the other civilian agencies and the Defense Department to 
relook at all the programs they are doing now in math and 
science education, and there are something like 209 programs in 
these other agencies, but we are going to do that same rigorous 
look ourselves, and one of the things we have to address as a 
top priority is lack of math and science content knowledge of 
our teachers. I think that is true not only in high school, as 
we discussed, but it is certainly true in our elementary 
schools.
    Deputy Simon from the Department of Education recounts when 
he was Commissioner in Arkansas, Arkansas University that year 
graduated 6,000 elementary school teacher candidates and one 
physics major, and he said, unfortunately, that physics major 
moved out of State. So we have a content need that has to be 
met and online--we would hope States would come to us with 
proposals to enhance professional development in all sorts of 
ways.
    Senator Alexander. Let me ask you one more question and 
then I will go back to Senator Isakson and then we will move to 
the next panel. This work you are doing to look at the current 
programs in math and science, there is a lot of interest in 
that on this committee and there is a lot of interest in the 
House of Representatives about duplicating math and science 
programs before we start any more. At the same time, some of us 
are trying to move this PACE package and the President's 
proposals along and get them done in the next few weeks with 
the hope of passing them this year.
    Are these two trains going to pass in the dark or will your 
study of duplication be far enough along so that we could sit 
down with the administration and say, okay, we are now at the 
point that we need to make some decisions. Can you give us some 
advice about existing programs so they might be modified or 
eliminated or improved, whatever they ought to be, so that we 
might be able to include in our final result funds for other 
programs we think are higher priorities, such as the PACE 
recommendations?
    Mr. Luce. Well, I would say, in your opening remarks, you 
laid out, from our perspective, a wonderfully aggressive 
schedule to move this math and science legislation forward, and 
frankly, I don't know if we will be able to move as quickly as 
you are moving, but I can assure you that we will be in 
constant communication with you and with House members 
interested in the same subject, because the President himself 
is very, very interested in making sure that this is done and 
we hope to launch that effort in the next several weeks. So we 
will be moving as swiftly as possible, but I can't speak for 
other cabinet members as to how quickly they will be able to 
respond to our request. But I know they are going to get the 
support to do that from the President and from OMB.
    Senator Alexander. Thank you very much.
    We are glad to be joined by Senator Ensign, who is the 
principal sponsor of a major piece of competitiveness 
legislation of which I am glad to be a cosponsor. Senator 
Ensign, we are going to Senator Isakson for questions, then we 
will go to you, and then we will go to the next panel.
    Senator Isakson. Not to wear out the horse I started riding 
in the previous question, but when you and Lamar were talking 
about the highly qualified teacher, one of the other real 
aspects to this distance learning component or using technology 
is that a teacher in mathematics or science monitoring a class 
taught via the Internet by an Advanced Placement expert can, in 
fact, improve their content knowledge as they monitor and teach 
those classes. So you have a two-fold--it is kind of a double-
whammy, so to speak. First of all, you are delivering what you 
know is highly qualified content via the Internet, and second, 
you have a teacher who might not be highly qualified, but with 
that exposure can be, and I just will close by one example.
    Glee Smith of my staff, if she is still with me here, I 
will tell you a little story to illustrate the power of that. 
We went to Menia, Egypt, in 2002 tracking U.S. foreign aid 
education money through NGOs to the most rural, impoverished 
areas on the globe. We went there and went to Ethiopia. We went 
to a village in Egypt, Menia, where they were teaching Egyptian 
children, young girls who, by the way, had been denied to go to 
school up until just a couple of years before, English and they 
were teaching them the following mechanism. They supplied them 
with a boom box that had an eight-track audio tape that played 
``One little, two little, three little fingers,'' instead of 
``One little, two little, three little Indians,'' and they 
would teach them to sing that song to teach them to count, one, 
two, three, four, five.
    What was interesting was the teacher that was monitoring 
these children didn't speak English, either, and she was 
learning English via the exposure of those audiotapes the same 
way you would by downloading high-quality content via the 
Internet. In fact, today, over in Northern Africa now, they 
have a stationary satellite where they can beam that down over 
broadband. So it has a powerful assistance, not only to deliver 
high-quality content to children, but also to deliver exposure 
of that content to an otherwise qualified teacher to enhance 
their ability, and I will get off the technology stuff now and 
yield to my distinguished colleague from Nevada.
    Mr. Luce. If I might respond briefly----
    Senator Isakson. Absolutely.
    Mr. Luce. [Continuing]. Attempt to ride side-saddle on your 
horse, I would also point out that the President in his 
initiative has called for the use of an adjunct teacher corps, 
where we hope to bring in from the private sector people who 
could help existing teachers and teach themselves, and I think 
the importance of that is they can bring into the classroom for 
teachers to observe and see relevance from the current 
workplace, which I think is needed to encourage our students to 
really understand the power of math and science.
    Unfortunately, oftentimes when we talk about math and 
science, somebody immediately thinks, well, my son or daughter 
is not going to be a mathematician or a scientist, but we need 
to bring alive what is done by people using that foundation of 
education, the exciting many things that they can do in the 
workplace or in medicine or many other vocations. They may not 
be, quote, ``labeled'' a mathematician or a scientist, but if 
they didn't have that foundation, they wouldn't have that job.
    Senator Alexander. Senator Ensign.
    Senator Ensign. Thank you, Mr. Chairman, and thanks for 
putting this hearing together and for your leadership on the 
issues of education, competitiveness, and the direction that 
our country needs to go. I think a lot of us have finally woken 
up to where we are as a country and where we need to go. We 
understand the type of world we live in today, where students 
from my State aren't just competing with students from 
Tennessee, but they are competing with students from all over 
the world in the global economy. Obviously, the focus today and 
tomorrow is on some of the competitiveness issues in education. 
What can we do to make us more competitive in the world really 
is the question we are faced with.
    I had a great breakfast with Secretary Spellings 2 weeks 
ago, and we talked about some of these issues. What I want to 
focus on, Mr. Luce, is when we are looking at--and we touched 
on this briefly in the breakfast--how childen learned to read 
in the United States. We realized that children weren't 
learning to read, so we identified some of the problems, at the 
Federal Government level. When things are going awry, the 
Federal Government has the resources to do the research that is 
necessary to identify problems and solutions.
    We found that we were teaching reading, but needed to get 
back to the basics of phonics. In looking back at the reading 
wars and some problems that led to some of the lack of reading 
skills, I guess that we are starting to see the same issues in 
math. Maybe you want to comment on some of that, where do you 
think we are going with improving how we teach math. I took 
about every kind of math class that there was when I was 
growing up and I ended up going into the sciences and 
veterinary medicine. Math and science were important to me. But 
kids today are more advanced as far as the amount of math that 
they have to take, and yet they seem to be learning a lot less 
of it. So that is, I guess, the quandary that we have today.
    Can you maybe comment on how the research is going and 
where we need to go from here to help schools and teachers 
identify why students are taking all this math but are not 
learning as much?
    Mr. Luce. I am sure the Secretary discussed with you in her 
breakfast her desire to launch this National Math Panel that we 
hope would do exactly what you are saying, and seeing it as 
possible. I have been looking at this problem since I came to 
the Department last July and it seems to me that the National 
Math Panel can not only do what the National Reading Panel did, 
which was to sift through the scientifically-based evidence 
that does exist, but can also identify some principles and 
practices and components for which we have evidence-based 
outcome results which we could share with States, all of this 
on a voluntary basis.
    But I think we have an obligation to step forward and say, 
look, here is what the scientifically-based evidence shows and 
also here is what some promising areas look like, and also have 
that panel identify for the Institute of Education Sciences 
what are the particular areas that we need to emphasize in our 
research.
    I have already heard over and over, I met with a lot of 
distinguished mathematicians over the last 6 months and I hear 
constantly that we need to instill in our youngers in K through 
6 more and more of what I would call in my langauge terms pre-
algebraic concepts so that when our students reach middle 
school, they can take and pass algebra I and II, which then 
sets up their ability to really take the math and science 
courses which we all need. Not enough of our students are 
prepared to do that today.
    I would say the American High School Diploma Project, which 
both Tennessee and Georgia, I know, are members of, is 
stressing that algebra component and it certainly is a critical 
need. I think, though, that we have got to communicate to the 
public. Our Secretary is fond of saying that when then-Governor 
Bush first talked about reading in elementary school at the end 
of the 3rd grade, every head would nod. But if you stood up and 
said, we want every student to take and pass algebra in 8th 
grade, heads might move like this. We have a teachable moment 
here, as she would say, in terms of this momentum on cover 
stories and everywhere else to really explain to the public, 
and I think that is the value of hearings, that we need this--
--
    Senator Ensign. Secretary Luce, along those lines, I don't 
know if the math panel is going to be looking at this, but part 
of increasing reading skills was motivating children to learn 
to love to read and looking at some of the reasons that 
children chose to read. For instance, why do boys not like to 
read as much as girls? Part of the answer, from what I 
understand, is how important it is for fathers to read with 
their sons and so that young boys had a good model to follow.
    A couple of years ago at the National Prayer Breakfast, Mr. 
Chairman, Dr. Ben Carson was the keynote speaker. Dr. Carson 
grew up in the inner city of Detroit, was raised by a single 
mom, and was one of the worst kids at his school. He ended up 
becoming motivated and obviously one of the great neurosurgeons 
of the world today and is now a great pediatric neurosurgeon 
from Johns Hopkins University. But he talked about how we are 
motivated and what we need to do to motivate some of our kids. 
One of the things he talked about was as long as we hold up 
athletes and musicians as role models, and don't put the 
innovators of the world on a Wheaties box and hold them up as 
role models, it is going to be difficult to encourage children 
to take STEM courses.
    So I hope that this math panel will also be looking at some 
of those issues, as well, not only the teaching techniques, but 
also how we should motivate the next generation of Americans. 
We used to have the space program that motivated a lot of 
people to go into engineering. Well, we don't have something 
like that for children to aim for today. Our kids are exposed 
to more things in their fantasy worlds of their video games 
than anything in the real world. How do we motivate that next 
generation?
    Mr. Luce. I certainly agree. There is an employer in 
Senator Alexander's State that is in the computer business that 
supplies parts to students in high school to build their own 
computer and their own MP-3 players as a way of demonstrating 
what you can do with math and science skills. I think if we 
can--I am also familiar with a program in Texas where Texas 
Instruments helped develop, with Southern Methodist University, 
an actual engineering curriculum for high school so that--and 
it was approved by the State of Texas, so that students could 
actually take, quote, ``engineering'' and learn some 
applications and some exciting things that they could do with 
math and science knowledge. I think the 50 Governors in their 
National Education Summit a year ago said relevance and rigor 
were the two most important things that had to be brought to 
high school.
    Senator Alexander. Thank you, Secretary Luce, for your 
time. We want to welcome Mrs. Luce, who joined you today. I 
want to personally thank you for your years of work in Texas 
and this country with the passion to improve education.
    Mr. Luce. Thank you, Senator, and thanks to each Senator 
here. Thank you.
    Senator Alexander. I would like to invite the next panel of 
witnesses to come up and we will get started. In fact, as you 
come up, I will begin introducing you and that will save us 
some time so we can get on to this.
    I would like to say that Senator Dodd, who is the ranking 
Democratic member of the committee, is one of the most 
enthusiastic and active cosponsors of this legislation and he 
wanted me to say to the witnesses that he is at a Rules 
Committee meeting, a markup, and he regrets that it conflicts 
with this. He hopes to be here shortly. Since I suspect this is 
the Rules Committee markup on Congressional ethics, my guess is 
he would much rather be here than there, but he is there. He 
wanted me to be sure and say that.
    I also want to insert into the record a statement from the 
Chairman of the full committee, Senator Enzi, who was also 
unable to be here this morning. In addition, I wish to include 
a statement from Senator Kennedy.
    [The prepared statement of Chairman Enzi follows:]

                   Prepared Statement of Senator Enzi

    Thank you, Mr. Chairman, for holding this subcommittee 
hearing and providing us with the opportunity to learn from 
those who are working to ensure that our students are the best 
in the world and that they continue to receive an education 
that is second to none.
    We live in an age in which knowledge is king and a good 
education is the golden key that our children will use to 
unlock their full potential. That potential will someday be 
reflected in a career that is both rewarding and satisfying.
    That is why, if we are to remain competitive in today's 
global economy, we must find ways to encourage students to stay 
in school and prepare for and enter fields that demand a high 
level of skills like careers in math, science, engineering, 
health, technology and critical foreign languages. In order to 
do that, we need a highly qualified teacher in every classroom 
who expects great things from every student they teach.
    In today's hearing, we are focusing on math and science 
teachers. To be well-prepared, these teachers must have an in-
depth knowledge and understanding of math and science and 
possess the kind of teaching skills that help to make students 
excited about learning.
    How can we attract more math and science majors to teach in 
our middle schools and high schools? How can we ensure that 
current math and science teachers who are highly qualified are 
supported and remain in the classroom? How can we provide every 
child with the kind of classroom experience that assures them 
that they can be anything they want to be if they are willing 
to work hard--and study even harder!
    The answers to these questions won't be easy and, 
unfortunately, just when we recognize the need for more skilled 
teachers, we are experiencing a significant aging of our 
teacher workforce. Over the past 2 decades, the median age of 
primary and secondary school teachers has increased from 36 to 
43. In 2000, teachers age 40 and over accounted for 60 percent 
of the teacher population, compared with 40 percent in 1980.
    With a large number of teachers approaching retirement age, 
we have a dual dilemma: attracting the 2 million new teachers 
that will need to be hired in the next decade and making sure 
they have the talents and skills they will need to make a 
difference in classrooms all across the country.
    Good pre-service preparation is critical. But in-service 
professional development experiences are also essential if we 
are to keep highly qualified teachers in the classroom. 
Research shows that providing extra support through induction 
programs to teachers in their first 3 years of teaching 
increases both their success as teachers and their retention in 
our teacher workforce. Especially in education, school is never 
out and learning never ends.
    Earlier this month, we heard from Secretary of Education 
Margaret Spellings on the role of education in meeting the 
challenges of global competitiveness. Roundtable participants 
talked to us about building and filling the pipeline so more 
high school students graduate on time prepared for both 
postsecondary education and the workplace, and not in need of 
further remediation.
    We look forward to hearing today from people with a variety 
of perspectives who can contribute to our understanding of how 
to improve teacher education programs at the undergraduate 
level, and providing more, high quality opportunities for 
continuing education professional development. I want them to 
know how much we all appreciate their attendance and their 
participation.
    Using the information we have obtained previously and what 
we will learn from today's hearing, we can pursue a legislative 
approach to address the important concepts laid out in the PACE 
bills. Working together, I have every confidence we can meet 
the challenges before us.

                 Prepared Statement of Senator Kennedy

    Thank you, Senator Alexander, for scheduling today's 
hearing on math and science teachers. I applaud your bipartisan 
work with Senators Bingaman, Mikulski, and Domenici on the PACE 
Act and I look forward to working with you on these issues. I 
join in welcoming Assistant Secretary Luce and our other 
witnesses today, and I look forward to their testimony.
    In today's competitive global world, America's ability to 
produce talented scientists, mathematicians and engineers is 
vital to our economy and our national security. To stay on the 
cutting edge of innovation, we need to educate and train a new 
generation of students who excel in these fields. It's no 
surprise that every major report on the global challenge calls 
for increased investment in teaching as one of the main 
solutions.
    The most powerful predictor of student achievement in math 
and science is teachers who are fully certified and have at 
least a bachelor's degree in the subject they teach. According 
to the National Science Board, however, as many as 28 percent 
of science teachers and 20 percent of math teachers lack full 
certification in their teaching field.
    Low salaries and insufficient support make it extremely 
difficult to recruit and retain highly-qualified teachers. 
Teacher salaries have remained nearly flat over the past 
decade. Almost a quarter of science and math teachers who left 
the profession between 2000 and 2001 reported that they did so 
for better salary and benefits in other careers.
    Teachers also need resources and training to inspire 
students to achieve at the highest levels. Schools need tools, 
such as good textbooks and modern laboratories, to help 
students commit to these subjects. For America to remain 
competitive, we need a significant and sustained increase in 
investment in teachers.
    Given the scope of the challenge we face, the 
administration's proposals in the new budget are far from 
enough.
    The President's Adjunct Teacher program has the potential 
to provide students with valuable role models who can teach 
them real-world applications for the skills they are learning 
in the classroom. But every teacher must be well qualified--and 
have a degree in the field they teach, as well as a State 
license and certification.
    According to the Department of Education, we're only half 
way there today. Only 54 percent of the Nation's middle and 
high school teachers meet these requirements. The professionals 
in the President's Adjunct Teacher Corps are important 
resources, but they are no substitute for highly qualified 
teachers.
    This proposal also falls short because it does not include 
funding to help teachers strengthen their skills. The Math and 
Science Partnerships in the No Child Left Behind Act and at the 
National Science Foundation develop teacher skills and train 
teachers in the best instructional techniques, but the 
partnerships have been chronically under-funded. Two years ago, 
the President even proposed eliminating the NSF program. We 
need to invest more in these programs that educate and train 
existing teachers, not abandon them in favor of others that can 
reach only a small number of teachers and children.
    We must also do more to put the best teachers with the 
children who have the greatest need. Students in high poverty 
schools today are more likely to be taught by inexperienced 
teachers. It's unacceptable that in high schools with large 
minority student populations today, 41 percent of teachers lack 
an undergraduate degree in their primary field of instruction. 
All students have the right to expect their teachers to be 
well-trained and knowledgeable.
    This week, I am introducing the New National Defense 
Education Act, which makes investment in teachers a priority.

    <bullet> The bill makes college free for persons studying 
to become math, science and critical-need foreign language 
teachers who agree to teach in high poverty schools;
    <bullet> It provides grants for innovative postsecondary 
programs to recruit more teachers to these fields;
    <bullet> It offers financial incentives, including tax 
breaks and increased loan forgiveness, to attract high-quality 
math and science teachers to high-poverty schools;
    <bullet> It creates a multi-year summer institute through 
the National Science Foundation to help teachers improve their 
teaching skills in math and science; and
    <bullet> It helps high-need schools build modern 
laboratories and buy new textbooks, so that teachers will have 
the support they need to help children succeed in the 21st 
century.

    The demands of globalization mean we must develop the 
capacities of all our people, but we can't do it without a 
sustained commitment to investing in our teachers. I look 
forward to hearing from our witnesses today and to working with 
them and the committee to see that America maintains its 
competitive edge by strengthening our greatest resource--our 
people.
    Senator Alexander. I am going to ask you to testify, if you 
will, in the following order that I introduce you, starting 
with Dr. Vagelos, who is a member of the Augustine Committee 
that produced ``The Gathering Storm,'' which is the base report 
that is the basis for the PACE legislation. He is the retired 
Chairman and Chief Executive Officer of Merck. Merck's own 
Science Teachers Institute was recommended by the Augustine 
report as one example of a good short-term academy for 
teachers.
    Following Dr. Vagelos, Dr. Mary Ann Rankin, who is the Dean 
of the College of Natural Sciences at the University of Texas 
at Austin. She was the driving force behind the acclaimed 
UTeach program, which is also included in the PACE legislation.
    Dr. Hai-Lung Dai is the Director of the Science Teachers 
Institute at the University of Pennsylvania in Philadelphia. 
That institute was cited in the Augustine report as a model for 
a Master's degree program to help current teachers improve 
their expertise in science.
    Ms. Veronica Garcia is the Secretary of Education for the 
State of New Mexico and the former Albuquerque School District 
superintendent. As Secretary, she has emphasized strong math 
and science standards, collaborated with the two national 
laboratories in New Mexico to improve math and science 
education, and strengthened Advanced Placement opportunities 
for New Mexico students. Senator Bingaman and Senator Domenici 
are the principal cosponsors of the PACE legislation and, of 
course, very proud of your work in New Mexico.
    Ms. Delores Flanagan is a teacher at Burr Middle School in 
Hartford, CT, a former Teacher of the Year and certified by the 
State of Connecticut as a math and science mentor, a certified 
collaborating teacher, and also a math teacher portfolio 
scorer.
    So may I suggest beginning with Dr. Vagelos and then to Dr. 
Rankin, as you were introduced. You have submitted your 
testimony. It will be included in the record. If you could take 
up to 5 minutes and summarize your testimony, then that would 
give us a chance to ask you questions. When the time comes for 
asking questions, since Senator Bingaman hasn't had a chance to 
ask any questions, we will let him go first, then we will go to 
the Republican side.
    Dr. Vagelos.

   STATEMENTS OF P. ROY VAGELOS, RETIRED CHAIRMAN AND CHIEF 
    EXECUTIVE OFFICER, MERCK AND COMPANY, INC., AND MEMBER, 
   COMMITTEE ON PROSPERING IN THE GLOBAL ECONOMY OF THE 21ST 
CENTURY, COMMITTEE ON SCIENCE, ENGINEERING, AND PUBLIC POLICY, 
DIVISION ON POLICY AND GLOBAL AFFAIRS, THE NATIONAL ACADEMIES, 
   BEDMINSTER, NJ; MARY ANN RANKIN, DEAN, COLLEGE OF NATURAL 
 SCIENCES, UNIVERSITY OF TEXAS AT AUSTIN, AUSTIN, TX; HAI-LUNG 
 DAI, DIRECTOR, PENN SCIENCE TEACHERS INSTITUTE, UNIVERSITY OF 
 PENNSYLVANIA, PHILADELPHIA, PA; VERONICA GARCIA, SECRETARY OF 
 EDUCATION, NEW MEXICO DEPARTMENT OF EDUCATION, SANTA FE, NM; 
AND DOLORES FLANAGAN, TEACHER, BURR MIDDLE SCHOOL, HARTFORD, CT

    Mr. Vagelos. Thank you, Senator Alexander and Senator 
Isakson and Senator Bingaman. I am delighted to be here. I am 
happy to have the opportunity to discuss the recommendations of 
the National Academies Committee on Prospering in the Global 
Economy of the 21st Century.
    In your letter to me, you asked for the committee's best 
methods for preparing future math and science teachers to fill 
the pipeline of qualified individuals. I want to admit to a 
bias. I am a biomedical scientist, having headed the Merck 
research laboratories at the time that the statins were 
discovered and developed in the United States. The statins are 
drugs such as Mevacor, Zocor, and Lipitor, which lower blood 
cholesterol. These drugs have revolutionized the treatment of 
heart disease in the world. That invention could have been made 
outside of the United States except that the scientists in the 
United States at that time were prepared to work in this field 
and were able to take advantage of it for the benefits of the 
world, really.
    Our committee believes that our children's understanding of 
science and math will be crucial for the United States to 
retain high-knowledge jobs in the 21st century. That is what we 
are talking about, of course. The committee noted that the 
majority of K through 12 teachers now teaching in math and 
science do not have majors and have no certificates in those 
areas. In the year 2000, 61 percent of the teachers teaching 
chemistry and 67 percent of teachers teaching high school 
physics did not have a major in that area, so they don't really 
have a fundamental understanding of the things that they are 
teaching and that is not a good thing for us.
    The committee has as our top recommendations improving the 
content knowledge of the teachers teaching both science and 
mathematics. The first recommendation really speaks to the 
UTeach program, which will be discussed in some detail by Dr. 
Mary Ann Rankin, but this program, we find, is really 
outstanding because it takes people who really will be majoring 
in the subjects of note and during their 4-year exposure period 
will also take some pedagogy studies. When they graduate, they 
will fundamentally understand these subjects, the content and 
also teaching, and will go out to the community. The idea, the 
proposal is that they get up to 4 years of scholarships to do 
that and universities are also given payments in order to 
formulate these programs.
    The second one is the science and math Master's program at 
the University of Pennsylvania, which Dr. Hai-Lung Dai is going 
to discuss. This one is taking current teachers back into the 
universities for a 2-year concentrated program, part-time. They 
continue working, but they spend three summers and alternate 
Saturdays, where they again spend 80 percent of their time on 
content of a science or math and 20 percent on pedagogy. At the 
end of that time, they are the Master Teachers. They are the 
teachers who really understand these subjects and will be able 
to tutor in all the other programs, the summer programs, the 
institutes.
    And so we see these as the two long-term programs that are 
going to produce the kinds of teachers that we should have 
throughout our system and they are very critical. Then we have 
the shorter-term proposals that will have immediate impact and 
they include the summer institutes, 1, 2, 3, 4 weeks, which 
would give concentrated, again, content studies for people 
coming in from the current teachers in K through 12.
    An example is the program in the K through 6 in math and 
science, and you would say, well, why K through 6? Well, 
because many students are turned off by teachers who are afraid 
of math and afraid of science and we lose them right at that 
early age. So we have a K through 6 program that we are 
promoting.
    Another recommendation is the Advanced Placement program, 
which will be discussed by Peter O'Donnell tomorrow, but here, 
too, current teachers being brought back for a couple of weeks 
to learn to teach to the Advanced Placement courses. These 
teachers will have incentives. The students will have 
incentives. The program seems to work pretty well in Dallas and 
we are strongly behind that.
    So we have the combination of short-term programs and the 
long-term programs, which we think are fundamental. We are 
promoting both of them. We think they should go hand-in-hand to 
bring our country to where it should be.
    You asked also how this relates to the PACE proposals, and 
they are right on, of course. We are delighted that you have 
taken that initiative, you and your committee, to propose such 
legislation which contains both the long-term and the short-
term remedies for our problems in science and math and will 
bring us to a competitive position.
    Thank you.
    Senator Alexander. Thank you, Dr. Vagelos.
    [The prepared statement of Mr. Vagelos follows:]
                  Prepared Statement of P. Roy Vagelos
    Mr. Chairman and members of the committee, thank you for this 
opportunity to appear before you on behalf of the National Academies' 
Committee on Prospering in the Global Economy of the 21st Century. As 
you know, our effort was sponsored by the National Academy of Sciences, 
National Academy of Engineering and Institute of Medicine (collectively 
known as the National Academies). The National Academies were chartered 
by Congress in 1863 to advise the Government on matters of science and 
technology.
    During my testimony, I will focus on the challenges that we are 
facing in K through 12 education. The committee believes the education 
issue is the most critical challenge the United States is facing if our 
children and grandchildren are to inherit ever-greater opportunities 
for high-quality, high-paying jobs. Our solution and recommendations to 
respond to the Nation's challenge in K-12 science and mathematics 
education are the committee's top priority.
    In examining the issue of K-12 science and mathematics education, 
the committee found facts such as the following:

    <bullet> In 1999, 68 percent of U.S. 8th grade students received 
instruction from a mathematics teacher who did not hold a degree or 
certification in mathematics.\1\
    <bullet> In 2000, 93 percent of students in grades 5-9 were taught 
physical science by a teacher lacking a major or certification in the 
physical sciences (chemistry, geology, general science, or physics).\2\
    <bullet> According to a recent survey, 86 percent of U.S. voters 
believe that the United States must increase the number of workers with 
a background in science and mathematics or America's ability to compete 
in the global economy will be diminished.\3\

    The committee then made the recommendation we call ``10,000 
Teachers, 10 Million Minds'' which proposes increasing America's talent 
pool by vastly improving K-12 science and mathematics education.
    In developing its action steps to reach this goal, the committee 
first focused on what part of K-12 science and mathematics education 
was of greatest concern. The committee immediately recognized that many 
of the teachers of these subjects do not have sufficient education in 
these fields, and its recommendations respond to that concern.
    Today, I will focus on the committee's proposed actions related to 
improving the quality of our teachers. Tomorrow, Peter O'Donnell, 
another member of the National Academies committee, will discuss the 
committee's proposed actions related to enlarging the pipeline of 
students who are prepared to enter college and graduate with a degree 
in science, mathematics, engineering, or computer science.
    Of all its 20 action steps, the committee's highest priority is a 
program that would annually recruit 10,000 of America's brightest 
students to the K-12 science and mathematics teaching profession. The 
program would recruit and train excellent teachers by providing 
scholarships to students obtaining bachelor's degrees in science, 
technology, engineering, or mathematics while gaining concurrent 
certification as K-12 science and mathematics teachers. They would 
accomplish this by taking some pedagogy courses along with their major 
courses. Over their careers each of these teachers would educate 1,000 
students, so that each annual cadre of teachers educated in this 
program would impact 10 million minds.
    The program would provide merit-based scholarships of up to $20,000 
a year for 4 years for qualified educational expenses, including 
tuition and fees, and would require a commitment to 5 years of teaching 
service in public K-12 schools. A $10,000 annual bonus would go to 
program graduates working in underserved schools in inner cities and 
rural areas.
    To provide the highest-quality education for undergraduates who 
want to become K-12 science and mathematics teachers, it would be 
important to award matching grants, perhaps $1 million a year for up to 
5 years, to as many as 100 universities and colleges to encourage them 
to establish integrated 4-year undergraduate programs leading to 
bachelor's degrees in science, engineering, or mathematics with 
concurrent teacher certification.
    This program, modeled after a very successful program in Texas (and 
which is being replicated in California), takes advantage of those 
people who are already in science, mathematics, engineering, and 
technology higher education programs and offers them the ability to get 
into teaching. It also incorporates in-classroom teaching experiences, 
master K-12 teachers, and ongoing mentoring--the combination of which 
produces highly qualified teachers with the skills and support to 
remain effective in the classroom.
    Our second action step focuses on strengthening the skills of 
250,000 current K-12 science and mathematics teachers through summer 
institutes, Master's programs, and Advanced Placement and International 
Baccalaureate (AP and IB) professional development programs. Each of 
these activities also builds on very successful model programs that can 
be scaled up to the national level.
    In the case of the summer institutes, the committee recommends that 
the Federal Government provide matching grants for statewide and 
regional 1- to 2-week summer institutes to upgrade the content 
knowledge and pedagogy skills of as many as 50,000 practicing teachers 
each summer. The material covered would allow teachers to keep current 
with recent developments in science, mathematics, and technology and 
allow for the exchange of best teaching practices. The Merck Institute 
for Science Education for K-6 teachers is a model for this 
recommendation.
    For the science and mathematics master's programs, the committee 
recommends that the Federal Government provide grants to universities 
to develop and offer 50,000 current middle-school and high-school 
science, mathematics, and technology teachers (with or without 
undergraduate science, mathematics, or engineering degrees) 2-year, 
part-time master's degree programs that focus on rigorous science and 
mathematics content and pedagogy. This program's master's teachers 
would provide leadership for all the programs included in our K-12 
science and mathematics education recommendation. Teachers who complete 
this program would receive federally-funded $10,000 stipends annually 
for up to 5 years provided they remain in the classroom and engage in 
teacher leadership activities. Once the 5-year limit has been reached, 
teachers could pursue national certification for which many States 
offer a financial basis. The model for this recommendation is the 
University of Pennsylvania Science Teachers Institute.
    In the case of AP, IB, and pre-AP or pre-IB training, the committee 
recommends that the Federal Government support the training of an 
additional 70,000 AP or IB and 80,000 pre-AP or pre-IB instructors to 
teach advanced courses in mathematics and science. Assuming 
satisfactory performance, teachers may receive incentive payments of up 
to $2,000 per year, as well as $100 for each student who passes an AP 
or IB exam in mathematics or science. There are two models for this 
program: the Advanced Placement Incentive Program and Laying the 
Foundation, a pre-AP program.
    These teachers would then participate in our proposed program, 
which will be discussed in more depth tomorrow by Peter O'Donnell, that 
would create opportunities and incentives for middle school and high 
school students to pursue advanced work in science and mathematics. The 
committee recommends that the number of students who take at least one 
AP or IB mathematics or science exam should be increased to 1.5 million 
by 2010. The committee also recommends setting a goal of tripling the 
number of students who pass those tests to 700,000. Students would 
receive incentives to both take and pass the exam including a rebate of 
50 percent of their examination fee and a $100 mini-scholarship for 
each passing score on an AP or IB science or mathematics examination.
    Why are we doing this? Because many of the science and mathematics 
teachers who are teaching these subjects have no background in the 
subjects that they are teaching. It is very hard for someone who does 
not have a physics education to turn students on to physics, because 
many lack a fundamental understanding of the subject. Teachers with 
strong content knowledge, either through a bachelors or Masters 
program, who also have strong pedagogy skills and access to ongoing 
skills updates can be truly effective in encouraging students to enter 
science, mathematics, and technology fields.
    The PACE legislation package is harmonious with our recommendations 
and proposes actions for educating a new workforce with up-to-date 
knowledge in science and engineering. This critical challenge spans 
from K-12 through doctoral and post-doctoral education. We are 
particularly pleased that the PACE Acts include major programs across 
agencies to provide scholarships for students who study science, 
engineering, or mathematics and concurrently earn certification and 
commit to teaching. We believe that the bills' programs to strengthen 
skills of teachers through masters programs, workshops, and training 
for effective Advanced Placement and International Baccalaureate 
instruction are excellent.
    By taking the actions proposed in the National Academies Gathering 
Storm report, we believe that the United States will be better 
positioned to compete as a country for high-quality, high-paying jobs 
for all Americans.
    Thank you for providing me with this opportunity to testify before 
the committee. I would be pleased to answer any questions you have 
about the report.

Notes

    \1\ National Science Board. 2004. Science and Engineering 
Indicators 2004 (NSB 04-01). Arlington, VA: National Science 
Foundation. Chapter 1.
    \2\ National Center for Education Statistics (2004), Schools and 
Staffing Survey, 2004. ``Qualifications of the Public School Teacher 
Workforce: Prevalence of Out-of-Field Teaching 1987-88 to 1999-2000 
(Revised),'' p. 10 (http://nces.ed.gov/pubs2002/2002603.pdf).
    \3\ The Business Roundtable. 2006. ``Innovation and U.S. 
Competitiveness: Addressing the Talent Gap. Public Opinion Research.'' 
January 12. Available at: http://www.businessroundtable.org/pdf/
20060112Two-pager.pdf.

    Senator Alexander. Dr. Rankin.
    Ms. Rankin. Mr. Chairman and members of the committee, 
thank you very much for this honor. This is a great opportunity 
to speak in favor of the PACE bill and in particular to urge 
support for proven, successful math and science teacher 
preparation programs as a part of the legislation. I think that 
is a very wise part of what is being proposed.
    I know you share my deep concern for the threat that the 
inadequacies of our system of education pose to our national 
economy and security, and I feel very strongly that we are 
losing students from technology-related career paths in middle 
school--late elementary actually, I agree with Dr. Vagelos--
middle school and high school because of a lack, of qualified, 
inspiring math and science teachers. I think a key part of the 
solution to this problem is innovative, effective teacher 
training such as what we have developed in partnership with the 
College of Education at UT-Austin.
    In 1997, we initiated a program for math and science 
majors, which as you have heard we called UTeach. Now, Research 
I universities have not traditionally assumed much 
responsibility for teacher training, so this is rather unusual 
for UT-Austin, and in fact, prior to the establishment of this 
program, we had very few math and science majors pursuing 
certification. I think in 1996, we had four in science and 19 
in math out of a student body of 8,300 science and math majors 
at the time, and it was the fall-back choice after they had not 
gotten into graduate school or medical school and many who were 
certified did not actually go on to teach.
    So we wanted to create a program that would attract large 
numbers of strong math and science majors to teaching and, of 
course, to prepare them to be successful, and we believe we 
have achieved that goal. Since the inception of the UTeach 
program, we have doubled the number of math majors and 
increased by probably six times the number of science majors 
being certified. Enrollment now is 449 students this year, and 
this year's 74 graduates will bring the total number of 
graduates to about 350. Approximately 89 percent of these 
graduates are either planning to teach or teaching, and 75 
percent of those who graduated in 2001 or before are actually 
still teaching. If you know anything about the rate of teachers 
leaving the profession, you know these are very good numbers.
    The quality of UTeach students is very high. As a group, 
they have higher SAT scores, higher grades in comparison to the 
rest of the college undergraduate peer group, and approximately 
a quarter of these students are traditionally underrepresented 
minorities who we believe will be strong inspiring role models 
for their own students. This, again, is substantially more than 
in the overall UT undergraduate population.
    These strong students are choosing this career path as a 
first choice rather than a fallback and they emerge with a lot 
of experience in the classroom as well as a very good grounding 
in pedagogy. We feel that the time has come to replicate this 
program across the country.
    We favor the creation of an initiative that will help other 
universities develop programs similar to UTeach. One 
possibility might be a sort of a phased initiative where we 
target major universities that already have the capacity to 
prepare many secondary math and science teachers, including UT-
Austin, and then in a second phase, each of these model 
programs could assist neighboring universities to develop their 
own programs. Scaling up is always a challenge, but I think at 
this point in time, it would be a mistake to just try to 
reinvent the wheel, but rather we should take proven programs 
and try to scale them up and replicate them.
    I think awards should be large enough to enable program 
establishment, but not so large as to create long-term 
dependence on Federal funds. The institutions that receive 
funds need to commit to incorporating the program and its 
expenses as a part of their normal operating budget after the 
funding is gone.
    I think another probably important thing is to involve 
deans of colleges of science and education as PIs, who are 
certainly leaders in this initiative, because this is sort of 
where the budget is created and close enough to the faculty to 
actually make things happen.
    The key elements of UTeach success that we feel other 
programs should replicate are, first of all, adherence to 
national and State guidelines for math and science education; 
employment of outstanding and experienced high school and 
middle school math and science teachers as instructors, 
advisors, and field supervisors, along with regular science and 
education faculty. I think this is one of the most important 
components of UTeach's success.
    Another important thing is new pedagogy classes that 
replace the old traditional general education courses and focus 
on how you teach math and science, intermingled in a curriculum 
with the discipline courses and reinforcing them. Inclusion of 
field experiences in the pedagogy courses at every level, so 
the students are out experiencing teaching all the way through 
their program.
    Aggressive recruitment of math and science majors to 
teaching, which involves advertising the program in many 
different ways and providing monetary incentives to try the 
program and then to be supportive while they are going through. 
This could take the form of scholarships, of course, but one 
thing that has been very important in UTeach's success is 
internships, where they actually work in teaching situations, 
being paid, in our case, with private funding, but as aides in 
public school classrooms, docents in museums, or other sort of 
situations that reinforce what they are learning in their 
pedagogy courses.
    Also, the ability to complete the program with a serious 
math and science major and teacher certification in 4 years. I 
think that has been very important.
    Finally, induction support for the graduates once they 
leave us. We have focused a lot on the fact that many new 
teachers leave the profession within the first few years of 
service and we think a substantial support system, online 
support if they are not within the neighborhood, but also 
assistance with visits by experienced mentors, assistance with 
lesson plans, curriculum, classroom management. All of this can 
make the difference between the first years that are 
intolerable and first years that are successful.
    We have also developed----
    Senator Alexander. Dr. Rankin, I want to try to keep all 
the statements to about 5 minutes, if we can, so I can get the 
Senators' questions.
    Ms. Rankin. Just one more sentence and I will be finished. 
We have developed summer course work leading to a Master's 
degree along the lines of best practice in Pennsylvania and 
other places, and I think this is very important, as well, but 
thank you very much.
    Senator Alexander. Thank you very much.
    [The prepared statement of Ms. Rankin follows:]
                 Prepared Statement of Mary Ann Rankin
  uteach: a national model for teacher preparation in math and science
    The UTeach program was developed at The University of Texas at 
Austin to help address the disturbing shortage of qualified math and 
science teachers that exists in Texas and beyond. UTeach graduates are 
mathematics and science majors (not Education majors). They are strong 
students and they are becoming teachers in large numbers.
    Prior to the development of UTeach the College of Natural Sciences 
at UT Austin was producing very few graduates certified to teach high 
school math or science. In establishing UTeach we hoped to create a 
program that would attract a large number of strong students to this 
career path as a first-choice and that would train them to be 
outstanding, successful teachers.
                  selected awards for uteach graduates

2006

    <bullet> Elizabeth Abernathy (certified, Spring 2003) is selected 
as the Teacher of the Year at Kealing Middle School.
    <bullet> Katie Arrington (graduated May 2001, currently in the 
UTeach Master's Program) is selected as Math Curriculum and 
Instructional Specialist in Round Rock ISD.
    <bullet> Geoff Mathews (graduated Fall 2000) is selected as 
Technology Specialist in Round Rock ISD.

2005

    <bullet> Michael Degraff (Graduated May 2005, currently in the 
UTeach Master's Program), teaching at Bowie High School in Austin ISD, 
is selected as Mathematics Chair Honored Graduate by the UT Mathematics 
Department.
    <bullet> Dan Powderly (Graduated Spring 2003) is named Teacher of 
the Year at Castleberry High School in Forth Worth.

2004

    <bullet> David Villalobos (graduated Spring 2001) is selected as 
Travis HS Teacher of the Year.

2003

    <bullet> Chris Vande Sande Mihealsick (Graduated Spring 2002) is 
selected as Teacher of Promise for Crockett High School in Austin.

    Our original aims have been met. From a pilot project with 28 
students in the fall of 1997 UTeach has now matured to a high-profile, 
well-respected program with an enrollment of over 400 students/year. 
Nearly 300 students have graduated and nearly 89 percent are teaching, 
planning to teach, or actively searching for teaching positions. Over 
75 percent of the graduates who began teaching in the Fall of 2001 or 
before are still teaching.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Beyond its ability to attract top students into math and science 
education, the success of UTeach can be measured by its increasing 
stature as a model program for teacher preparation in which colleges of 
science and colleges of education work together with public schools. On 
the UT-Austin campus, the College of Liberal Arts has implemented its 
own version of UTeach. The UT System has declared UTeach to be a part 
of the Every Child Every Advantage initiative,\1\ and the National 
Research Council \2\ and the U.S. Department of Education \3\ have 
cited it as a model program. Texas A&M has implemented a program 
similar to UTeach after several discussions with us. Many other 
institutions in Louisiana, Colorado, and elsewhere are exploring ways 
to create similar programs. Indeed, to bolster its long-term economic 
prospects, which are largely dependent on the availability of a 
workforce with science and math skills, California has embarked upon an 
initiative to improve teacher preparation and increase the number of 
certified math and science teachers graduating from its public 
universities.\4\ The reform is based upon the UTeach model developed at 
UT Austin and is statewide in scope, with the full backing of the 
Governor. This is an effort to quadruple California's annual production 
of credentialed science and mathematics teachers, from 250 per year to 
1,000 per year by 2010. This initiative is the largest of its kind in 
the Nation and although it has just begun, it is an example of the 
level of commitment that will be necessary to solve the teacher 
shortage problem.
---------------------------------------------------------------------------
    \1\ www.utsystem.edu/EveryChild/K16PrgDes-Initiative1.html.
    \2\ Educating Teachers of Science, Mathematics, and Technology: New 
Practices for the New Millennium, National Academy of Sciences Press, 
(2000); Rising Above the Gathering Storm: Energizing and Employing 
America for a Brighter Economic Future, National Academy of Sciences 
Press (2005).
    \3\ www.ed.gov/news/speeches/2004/03/03182004.html; 
www.uteach.utexas.edu/about/recognition/Title11Report03.pdf.
    \4\ http://www.universityofcalifornia.edu/academics/1000teachers/.
---------------------------------------------------------------------------
    The following characteristics of UTeach have proven to be extremely 
important in attracting, retaining and successfully preparing large 
numbers of outstanding math and science majors for the teaching 
profession:

    <bullet> Experienced, outstanding former public school math and 
science teachers (Master Teachers \5\) have been hired by the College 
of Natural Sciences as non-tenure-track faculty (at this time we have 8 
on staff), paid from the instructional budget to supervise field 
experiences and teach certain associated classes. They are tremendous 
role models for apprentice teachers; being knowledgeable about what new 
teachers really face and need, they supply real life experience, 
guidance, and inspiration. They have been essential in providing 
connections with Austin school district teachers and administrators. 
They model excellent teaching practice for the UTeach students and the 
UT-Austin tenure-track faculty.
---------------------------------------------------------------------------
    \5\ A Master Teacher is an individual with at least 3 years public 
school teaching experience whom has put into practice the instructional 
strategies on which we will be evaluating UTeach students. Master 
Teachers are tremendous examples and guides, they are knowledgeable 
about what new teachers really face and need, and they are 
indispensable in providing connections with local school district 
teachers and administrators.
---------------------------------------------------------------------------
    <bullet> Early positive teaching experience gets students 
interested in the program. In their first program semester, UTeach 
students have carefully supervised field experiences in public school 
classrooms using research-based instructional materials that give them 
successful but realistic teaching experiences, and let them judge 
whether teaching is a good personal choice. The first two UTeach 
courses are field experiences in Austin elementary and middle school 
classrooms guided by inspiring, veteran teachers. This experience 
typically creates satisfaction and a commitment to teaching in 
participating students. The introductory courses are offered at no cost 
to the students. Although this is not a great savings, it seems to be 
important in convincing students to participate.
    <bullet> Innovative new professional development courses have 
entirely replaced the old education curriculum. The new courses focus 
on new theories of learning and on how to teach science or math 
effectively to diverse learners. They combine content material and 
pedagogy, are integrated with science and math courses, and emphasize 
the connections between the sciences and between mathematics and the 
sciences. Students acquire expertise with instructional technology 
through experiences woven throughout the pedagogy courses and learn how 
to use technology effectively in teaching. UTeach instruction models 
teaching practices expected of its graduates, emphasizing the use of 
inquiry and technology to engage students more deeply in learning 
mathematics and science. There are no generic education classes.
    <bullet> UTeach was designed in consultation with a group of 
outstanding high school teachers and the State Board for Educator 
Certification, according to new State guidelines for teacher 
certification, and new national and State standards for K-12 education 
in math and science.
    <bullet> All students in the College of Natural Sciences are 
recruited to join UTeach. We invite the whole freshman class to 
participate; letters of invitations go to new students before summer 
orientation followed by a presentation during orientation and 
additional invitations via mailings each year. Students also hear about 
the program through presentations to students groups, posters, and 
newspaper and television reports.
    <bullet> Field experiences in AISD high school or middle school 
classrooms continue as part of the pedagogy courses under strong mentor 
classroom teachers, and with guidance from the UTeach master teachers. 
This further increases the positive reinforcement that good teaching 
experience provides and gives valuable practice in teaching. Since 
nothing enhances learning of a subject more effectively than teaching 
it, the field-oriented pedagogy courses reinforce mastery of the 
discipline. Every student receives detailed written commentary on his 
or her teaching from cooperating teachers, and whenever possible from 
course instructors and Master Teachers. Lessons may be videotaped to 
provide opportunities for further analysis and reflection. All 
cooperating public school teachers who mentor UTeach students are paid 
for their efforts. All lessons taught by UTeach students in the field 
are based upon carefully prepared lesson plans that are available for 
review by course instructors, Master Teachers, and cooperating teachers 
prior to delivery.
    <bullet> Student teaching is the final field experience and it is 
overseen by Master Teachers through the college of Natural Sciences. 
Mentoring and help, either online or in person, continues even after 
students graduate and begin teaching. All UTeach students complete a 
portfolio that documents their accomplishments according to the State 
standards and additional UTeach program requirements. Final evaluation 
of teaching proficiency is done by trained observers, based on the 
candidate's classroom performance.
    <bullet> UTeach is a 4-year program. Students can finish in 4 years 
with certification, having completed a strong degree program in 
mathematics or science with student teaching. Therefore students can 
obtain teaching certification without expending money or time beyond a 
normal undergraduate degree.
    <bullet> UTeach degree plans are available for all teaching 
certifications grades 4-12 involving science, mathematics, and computer 
science. They are constructed with attention to State and national 
standards for teacher preparation in each discipline, including both 
process skills and content items. All the competencies of teachers 
required by the State, and assessed by the portfolio and final 
observation are covered during the UTeach course sequence. We also 
allow professionals to change careers and become teachers in an 
accelerated program that strikes the right balance between getting them 
into the classroom quickly and preparing them well enough so that they 
stay.
    <bullet> All UTeach students have a research experience to expose 
them to the challenges of open inquiry and technical accomplishment 
that characterize investigations in science and mathematics and to 
teach them how to facilitate such experiences for their own students.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    <bullet> Internships and scholarships are available for students 
who need them. Internships are funded from private donations solicited 
by the college; they provide financial help in an educational setting, 
augment student training and field experiences, and maintain 
commitment. Sixty to ninety students per semester work in nonprofit 
educational settings. Tasks range from mentoring children in math and 
science outreach activities or assisting in Austin public school 
classrooms, to working in museums or preparing educational software.
    <bullet> UTeach is a partnership between Colleges of Education and 
Natural Sciences (although the students are all Natural Sciences 
majors). This may not be essential but has been an important element of 
success at UT-Austin.
    <bullet> The fact that this program developed at a Research 1 
University means that very strong math and science students are 
involved in the program and we are able to infuse the program with an 
understanding of research and analysis as the foundations of science. 
The program could be replicated at non-R-1 universities and colleges, 
but a less well-prepared student body or faculty might mandate some 
enrichment activities in the discipline courses in order to have the 
level of discipline preparation that is characteristic of UTeach 
students.

    Another critical concern is support for our UTeach graduates and 
other novice science and math teachers. Many new teachers leave the 
profession within their first 2 years of service. We believe that a 
substantial support system, including assistance with lesson plans, 
curriculum and advice on classroom management can make the difference 
between first years that are rewarding or intolerable. To address this 
difficult problem we have developed, with support from the Michael and 
Susan Dell Foundation, a scalable, sustainable support system for 
novice math and science teachers. It involves onsite visits by 
experienced mentor teachers combined with 24-7 online help and on-
demand Saturday workshops. We are also developing summer coursework 
leading to a Master of Arts in Science and Mathematics Education. We 
have established a graduate-level program of professional development 
that will lead to a UTeach Master of Arts in Science and Mathematics 
Education. This provides the context of an advanced degree path for our 
new-teacher mentoring program and will hopefully be an added incentive 
for our novice teachers to continue teaching. It will also provide a 
rigorous, practical, high-profile path to a master's degree for in-
service teachers across Texas. We believe the mentoring-to-masters 
continuum will enable participating teachers to develop from novices to 
seasoned professionals, and will provide more established teachers with 
practical opportunities for real professional renewal. For Texas this 
will mean more and stronger teacher-leaders in mathematics and science 
throughout the State.
    Funding for the program comes primarily through university 
resources. About $1.5M/year pays the normal costs of University 
instruction. However, some aspects of the program such as the 
internships, tuition for the first two courses, and the induction 
support for new teachers require private funds, and many private 
foundations and individuals have provided support since 1997. We are 
working to establish an endowment to permanently support these kinds of 
expenses and have raised over $7 million towards a goal of $15M. The 
income from this endowment as well as additional one-time funds from 
foundations and individuals augments The University of Texas support 
for the program.
Replication of UTeach
    The time has come to implement the UTeach model across the United 
States. At UT-Austin, where UTeach was pioneered, the number of 
secondary science and math teachers certified per year has increased 
dramatically since inception of the program. Now is the time for 
science, math and education faculty and administrators at other 
research universities to develop the same level of involvement in 
teacher preparation that has made UTeach a success.
    The improvement of teacher preparation calls for programs that are 
effective, and based upon experience. Effectiveness needs to be valued 
more highly than novelty in this situation, and cooperation between 
institutions valued more highly than competition. Thus we recommend an 
alternative to the traditional merit review process.
    A program aiming to affect most of the country's large public 
research universities could proceed in phases. A first phase might be 
to identify universities that already have the capacity to prepare many 
secondary mathematics and science teachers, and whose programs are 
largely consistent with the provisions outlined above. These 
universities would complete the process of developing model programs, 
and develop the capacity to assist other universities to do the same. 
UT-Austin would welcome the opportunity to share the strategies used to 
develop UTeach during this phase, and would be glad to improve UTeach 
through interactions with other universities. In a second phase, each 
of the model programs in phase I would assist universities in 
geographic proximity to develop their own new programs. A third phase 
should be sufficient to affect public universities willing to 
participate, and private universities willing to offer competitive 
opportunities. Universities not interested in participation might be 
persuaded by the successes in the first two phases. Principal 
Investigators should be Deans of Arts and Sciences and co-PI's should 
be Deans of Education. Deans retain enough contact with faculty and 
departmental issues to ensure program implementation but are high 
enough in the administrative hierarchy of most universities to effect 
permanent change.
    We suggest that replication awards be for 6-8 years, focused on 
creation of teacher preparation programs on the UTeach model. Suggested 
requirements for a successful application appear in Appendix 1. 
Successful applicants would be reviewed annually. Continued funding for 
the full term would be tied to progress on specific benchmarks.
    Funds should be granted on a annual basis, subject to review and 
successful completion of benchmarks for enrolling and graduating 
students, creating courses and degree plans, and employing staff. Note 
that an important component of the program is the adoption of teacher 
preparation as a well-supported, permanent part of normal university 
operations. Therefore the grants should be set at a size designed to 
enable a new program to begin, without creating dependency that 
threatens the program when Federal funding terminates. Appropriate uses 
of grant funds include hiring Master Teachers, employing support staff, 
summer salary for participating faculty, or funds for student 
recruitment such as tuition remission. In any successful program, costs 
will rapidly exceed the amount of the grant. Deans, Provosts, and 
Presidents must therefore be aware of the commitment they are making as 
the process begins. Specific, explicit commitments on the part of the 
central administration should be required as a condition of 
participation in the form of an MOU. Potential for additional State 
support for a program should be part of this planning process.
    In endeavoring to establish UTeach-like programs at other 
institutions, we must take into account differences in administrative 
structure, mission, location, and student population. For example, one 
hallmark of UTeach is the excellence of the math/science knowledge that 
UT-Austin graduates possess, as evidenced by their high scores on 
certification exams and their classroom performance. If students do not 
enjoy the same degree of preparation in their discipline as UT-Austin 
College of Natural Sciences majors, it may by necessary to enrich the 
science and mathematics curriculum at their universities. This would 
require additional funding. We have developed a program at UT-Austin 
focused on at risk students admitted under Texas House Bill 588 passed 
in the 75th legislature that granted automatic admittance to all high 
school graduates in the top 10 percent of their graduating class to any 
Texas public college or university. This program, called the Texas 
Interdisciplinary Plan, is described in Appendix 2. It emphasizes 
enrichment activities, mentoring, small class sizes and work on applied 
problems. It has been very successful at UT-Austin, fits well with the 
UTeach curriculum, and could be adapted to augment basic math and 
science programs at other universities. Similarly, UT-Austin is located 
in a large metropolitan area that affords many and varied classroom 
experiences for our students. This has been extremely important to the 
success of the UTeach program. Universities located in more rural 
settings will face special challenges with respect to providing field 
experiences for pre-service students, and we would need to find ways to 
address this issue to achieve maximum success in these regions.
    In summary, we seek to help create an initiative that will assist 
other universities to develop programs similar to UTeach that redefine 
how math and science teachers are trained. We suggest the creation of a 
Federal initiative with a goal of enabling institutions across the 
country to increase the number and quality of science and mathematics 
majors obtaining teacher certification with funding dependent upon 
incorporation of the elements of success that we have demonstrated in 
the UTeach program. Providing scholarships to students attending 
traditional programs is insufficient to produce the type of teachers 
needed to lead more students to careers in math and science. It is 
critical that any Federal initiative serious about transforming math/
science education in the United States include funding for institutions 
to develop teacher-training programs as innovative and effective as 
UTeach.
               profiles of uteach students and graduates
    UTeach students come from many backgrounds and bring many different 
strengths to support their hopes of changing lives through teaching. 
These students and graduates will be glad to discuss their experiences 
at UT-Austin, in UTeach, and as future and current teachers.

Current UTeach Students

    April Lisa Olivarez: April Lisa is a senior majoring in 
mathematics, who is student teaching this semester. She comes from 
south Texas and she and her brother were the first in her immediate 
family to attend college. While still in high school, she took courses 
at UT Pan American and South Texas College, along with math and 
computer science AP courses. She ranked 8th out of 614 students at 
Mission High School and came to UT-Austin in the fall of 2002. She is 
an officer in the UTeach student organization and also works with a 
youth group five times each week as a mentor.
    Janice Trinidad: Janice graduated summa cum laude from Fordham 
University with a Bachelor of Science in physics. She was admitted to 
the UTeach program for post-baccalaureates in the spring semester of 
2005. She is working as a teaching assistant while conducting research 
and taking coursework towards teacher certification in physics and 
math, the UTeach Master of Arts, and a Ph.D. in theoretical physics. 
She is a past and current recipient of the Noyce Scholarship, funded by 
the National Science Foundation.
    Jenna Saldana: A sophomore mathematics major, Jenna comes from 
Carrizo Springs, Texas, a predominately Hispanic town close to the 
U.S./Mexican border. Jenna's dedication to quality education in our 
schools was demonstrated early in the program when she worked as a 
tutor/mentor in Dove Springs, an economically distressed neighborhood. 
Spanish is the first language for most of the students in that area. 
Jenna believes that her own fluency in Spanish is an asset in her work 
with these children. She is working towards certification in 
mathematics.
    Tyler Ham: Tyler is a senior majoring in mathematics. For the past 
3 years, he has also been a UTeach employee, working as the program's 
webmaster and data analyst. He graduated from Sam Houston High School 
in Arlington, Texas, second in his high school class of 373 students. 
His strong high school performance, taking AP classes in math and 
physics, English, chemistry, computer science, and history, has carried 
over into college course work. He is pursuing certification in 
mathematics.
    Alba Esparza: Alba is a junior majoring in mathematics at The 
University of Texas at Austin. Originally from El Paso, she graduated 
from Clint High School near the top of her class, taking AP courses in 
mathematics. Now in her second semester with UTeach, she is working 
towards the goal of becoming a middle or high school math teacher.
    Meagan Vickers: Meagan graduated second in a class of 99 students 
at Columbus High School in Columbus, Texas, a small town between 
Houston and San Antonio. Currently, Meagan is a senior and student 
teaching towards her certification in mathematics. Meagan has received 
University Honors every semester she has been with UT.

UTeach Graduates

    Ditrell Binkley: Ditrell graduated from The University of Texas at 
Austin in 2004 with a degree in mathematics. Though graduating first in 
his high school class of 360 students, Ditrell hit a few rough patches 
on the road to graduation from UT. He left UTeach for a couple of 
semesters, but a conversation with one of our Master Teachers brought 
him back into the program. Ditrell began teaching for Paredes Middle 
School in 2004. Beginning in 2005, while still at Paredes, Ditrell 
began work on a UTeach Masters in Math Education. Ditrell is dedicated 
to educational reform and intends to become an administrator.
    Eliana Prada Owens: Eliana came to the United States from Venezuela 
in 2000. After taking courses at Austin Community College, she was 
accepted to The University of Texas at Austin, where she majored in 
mathematics. A native Spanish-speaker, Eliana was a self-motivated 
student, determined to excel academically. She graduated with honors in 
the fall of 2003. Her first teaching job was with Georgetown High 
School, and now she is teaching mathematics at Stony Point High School 
in Round Rock. Eliana has been very successful in implementing the 
kinds of inquiry-based learning techniques emphasized by the UTeach 
Program. She has been a student in the UTeach Masters in Education 
program at UT since the summer of 2004.
    Steven Sinski: After graduating from high school in San Antonio, 
Steven came to The University of Texas at Austin where he earned a 
bachelor's degree in Biology in the fall of 2005. He is working for the 
UTeach program and will be searching for a teaching position in the 
fall.
    Natalie Pickering Wieland: Originally from New Mexico, Natalie 
graduated in December 2005 with a Bachelor of Science in chemistry and 
a perfect 4.0 GPA. She received the Noyce Scholarship, funded through 
the National Science Foundation, and is currently teaching at Round 
Rock High School.
    Jesse de la Huerta: Despite the difficulties of living as an 
English language learner while in the public schools of south Texas, 
Jesse graduated from Rivera High School in Brownsville ranked 7th in a 
class of 296 students. Jesse earned his undergraduate degree in 
mathematics from The University of Texas at Austin in the fall of 2004. 
Currently, he teaches in Austin, Texas, at the International High 
School, one of the magnet schools at Johnston High School, where he 
says he has found his calling.
    Katie Weber: Katie graduated from The University of Texas at Austin 
in 2004 with a Bachelor of Science in Biology. She received University 
Honors during each of her nine semesters as a Longhorn and was a 
speaker at Commencement. Currently, she's teaching at Henry Middle 
School in Leander, TX.
    David Vance Ballard: Vance came to UTeach through an unconventional 
route that included a stint as a deputy sheriff. He graduated from The 
University of Texas at Austin in 2005 with a bachelor's degree in 
Biology. He is now teaching for Del Valle High School in the Austin, 
Texas area.

APPENDIX I: Conditions for Awards

    To be awarded support, a university would need to develop a plan 
for the improvement of teacher preparation in science and mathematics 
with the following elements.

    <bullet> Description of current certification rate of science and 
mathematics teachers.
    <bullet> Statement of goals for improvement with timeline 
describing numbers of students enrolled in program and graduating.
    <bullet> Description of any existing university programs that 
indicate university capacity to develop teacher certification on the 
UTeach model.
    <bullet> Identification of an organizational unit within the 
College of Arts and Sciences or College of Science that will adopt 
teacher certification as its primary mission with signed agreement from 
the central administration.
    <bullet> Identification of core faculty in departments of science 
and mathematics who will champion teacher preparation in their 
departments by teaching courses dedicated to preparing future teachers, 
help create new degree plans, advise prospective students within their 
major, and assist as needed with program administration.
    <bullet> Identification of core faculty in the College of Education 
who will champion teacher preparation in their departments by creating 
and teaching courses specific to the preparation of secondary science, 
mathematics, and computer science teachers and working closely with 
colleagues in Colleges of Arts and Sciences.
    <bullet> Description of the process to be used in locating 
classrooms for field experiences. Supporting letters from school 
officials able to coordinate relations between university and school 
districts required.
    <bullet> Description of courses to be created over the funding 
period, focusing on courses involving practical experience in teaching. 
These must involve early field experience.
    <bullet> Description of degree plans existing or to be created 
enabling students to graduate in 4 years with a major in science, 
mathematics, or computer science and secondary teaching certification. 
Programs must make possible graduation in 4 years with certification. 
Post-baccalaureate programs may also be included.
    <bullet> Description of schedule for hiring Master Teachers to 
supervise field experiences. Programs must involve former secondary 
teachers employed full time at the university.
    <bullet> Description of other program elements, such as teaching 
portfolio, student support, opportunities for community service, 
student organization.
    <bullet> Supporting letters from the Deans of Science and Education 
and the President or Provost of the university are required. These 
letters must describe the internal university resources that will be 
made available as the project proceeds. These include:

        - Identification of space to house the new unit.
        - Identification of administrative support as program grows, 
        including administrative assistants and advisors.
        - Identification of faculty and instructional lines to be 
        committed.
        - Commitment to make fundraising from private sources for the 
        improvement of teacher preparation in science and mathematics a 
        high priority at the university.

    Note: <bullet> Letters from each faculty member, describing their 
interest and commitment to teacher preparation are required.

APPENDIX II: Enrichment Activities for Students With Poor Preparation 
                    for Advanced Mathematics or Science at UT-Austin: 
                    the Emerging Scholars Program and the Texas 
                    Interdisciplinary Plan

    When math-challenged Calculus students are accepted into the 
Emerging Scholars Program they feel special and proud. Other students 
respect, even envy them. They do extra and harder problems than the 
other students rather than easier and fewer, but they do them in teams 
with expert guidance from specially trained teaching assistants. 
Emerging Scholars register for an extra course in addition to the 
regular Calculus class. The extra class (which meets for 6 hours a 
week) is run by two teaching assistants who devise hard but practical 
problems for them and help the students learn how to work them. We have 
a great deal of data on this program because we have run it for nearly 
15 years. When they emerge from this program, ESP students are fully 
competitive with the other students. They move from getting D's and F's 
on their Calculus tests to A's and B's (see figure 1 below). An added 
benefit is that the numbers of minority math majors has risen steadily, 
because many of our ESP students have gone on to major in math! Without 
the Emerging Scholars Program many would not even have passed Calculus. 
Graduation rates are substantially higher among ESP students relative 
to other College of Natural Sciences students (see figure 2 below) even 
though this is only one course in their program. The increase in self 
confidence achieved with ESP has a profound impact. A similar approach 
works in other subjects such as Chemistry, but with modification of the 
enrichment material.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Texas Interdisciplinary Plan (TIP) is a broader enrichment 
program based upon the principles of success demonstrated by the 
Emerging Scholars Program. Like ESP, TIP has been developed to assist 
students who are likely to be at-risk in their transition to the 
University of Texas at Austin.\6\ TIP uses many of the same techniques 
as ESP, particularly the extra enrichment in small groups and cohort 
study teams. The average TIP class size is 50 or less instead of the 
College average of 100, and classes are taught by instructors 
especially selected for their outstanding teaching record. Each basic 
science course has 1 to 2 hours of supplemental instruction each week 
in addition to a TIP seminar (see below) with a format that is similar 
in structure to the Emerging Scholars model. Students are personally 
assisted by upper class peer mentors.
---------------------------------------------------------------------------
    \6\ TIP was created to serve a new population of students 
automatically admitted to the University under the top 10 percent rule. 
This statute, House bill 588 passed in the 75th legislature, grants 
automatic admittance to all high school graduates in the top 10 percent 
of their graduating class to any Texas public college or university. 
TIP participants are drawn from this pool of students and further 
selected for their persistence in overcoming the challenges of low 
socioeconomic background. The invitation is specifically worded to 
emphasize the rigor and special opportunities of TIP, such that 
students regarded it as an honor to be invited to join. Nearly all TIP 
students were in the top 10 percent of their graduating class, close to 
half are among the first in their families to attend college, many are 
female, and more than 60 percent are of an underrepresented ethnic 
minority.
---------------------------------------------------------------------------
    Peer mentors are trained in time management, group dynamics, campus 
resources and services, and how to successfully assist students in 
their coursework. They offer academic and social guidance and support 
to TIP students. Selected for excellent academic performance, major, 
and leadership experience, peer mentors are upper division students who 
have themselves shown great capacity to overcome obstacles and succeed 
in our rigorous undergraduate curriculum. They work as academic tutors 
and assistants to TIP instructors and provide an introduction to UT 
social life through activities such as a bowling tournament in the 
Student Union, a tour of library services and resources, and a picnic 
lunch on one of the malls. Peer mentors are asked to reflect on their 
experiences and to continue their own training at weekly meetings with 
their supervisor. They play a critical role in the success of each of 
their TIP students.
    In addition to their regular classes, TIP students attend a 3-hour 
seminar/workshop each week at which students are coached in strategies 
for achievement in their course work, good study habits, and answers to 
specific questions. The TIP program coordinator in the Dean's Office 
also organizes special events as a part of this seminar to introduce 
TIP students to scientists at UT and in the broader community. This 
immediate link of the student experience to potential future career 
development is important. Researchers, physicians, medical school 
administrators and graduate students are among the speakers. Like the 
additional problems sessions that Emerging Scholars students take, the 
TIP seminar course is at the heart of the program. It is the innovative 
academic venue where core course issues of immediate concern to PENS 
students can be aired and addressed.
    In the fall of 2004 we added a TIP signature course for freshman: a 
Critical Thinking Seminar that challenges students to examine their own 
thinking from the perspective of rigorous intellectual standards. The 
seminars are kept small (approximately 20 students) to ensure a high 
level of student-to-student interaction. The curriculum includes two 
innovative student projects, including a Nobel Prize term-project and 
peer presentations on current issues and events.
    The results of the 1999 pilot program were extremely good. TIP 
students had an average freshman GPA of 2.94, compared to 2.6 in the 
control group. They also had many fewer students on academic probation 
(6 percent compared to 23 percent). It is important to emphasize that 
these students took classes that were just as hard as the larger 
sections. In some cases they took exactly the same exams, but they had 
extra attention and tutoring, extra work, and smaller classes. They 
scored better despite having an SAT a full 200 points below the college 
average. Success was achieved despite taking a more rigorous curriculum 
(three math and science courses instead of the more common two) than 
the typical incoming CNS student. More recent results from academic 
year 2004-05 are summarized below.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The TIP model provides some important lessons with respect to 
developing a successful UTeach program at Universities and Colleges 
where the student population is less well-prepared than students at UT-
Austin. We expect that an enrichment program with focus on mentoring, 
application of coursework to workplace settings (this is a natural 
consequence of the field experience that is a part of many of the 
UTeach pedagogy courses), small class size and enrichment activities 
will be necessary and effective in producing teachers who are extremely 
well-prepared in their discipline.

    Senator Alexander. Dr. Dai. As I mentioned earlier, we will 
be glad to incorporate in our record any statement that you 
have today or any afterthought that you have. Dr. Dai.
    Mr. Dai. Thank you, Mr. Chairman, members of the committee. 
It is a great pleasure for me to be here to speak on the 
importance of the content knowledge for teachers.
    Indeed, we have a serious problem in science education. I 
have a personal testimony here. Nearly 30 years ago when I 
first came to this country as a graduate student, I was one of 
the five foreign students in a class of 70. But today, more 
than 60 percent of the graduate students enrolled in American 
graduate schools are from abroad. Even at one of the top 
research universities, like the University of Pennsylvania, in 
the physics department and engineering schools, 75 percent of 
the graduate students are from abroad. One has to ask, where 
are the Americans, this question.
    As the previous speakers alluded to, we have to challenge 
this problem head on at early education. One of the important 
contributing factors to this issue is teacher quality. About a 
month ago, the National Science Foundation called a meeting of 
about 400 educators, scientists, and teachers together in 
Washington, DC on the issue of teacher quality. The number one 
criterion that was identified unanimously by all the attendants 
for an effective teacher is content knowledge, and yet content 
knowledge is exactly the most serious problems of the American 
teachers.
    First of all, there is not enough--teachers often were not 
prepared in the subject area they are teaching, as Dr. Vagelos 
suggested in the statistics, and also there is a very serious 
teaching out of field problem.
    So how do we deal with this problem? We have heard that 
there are many professional societies and organizations that 
have proposed workshop-type summer institutes or programs. 
These programs are very effective professional development 
vehicles to enhance the teacher's teaching skills and knowledge 
if they already have a substantial content knowledge base. But 
for those teachers who do not have the content base at the 
beginning, then these teachers really need a very formal degree 
learning environment to build this basis.
    So in the year 2000 at the University of Pennsylvania, with 
primarily small support from the National Science Foundation 
and the scholarship provided by the University of Pennsylvania, 
we started a Master's of Chemistry Education program. This 
program is designed with the following emphasis. It is content-
intensive. Eighty percent of the courses, eight out of the ten 
courses are content knowledge. Full scholarship is provided, so 
the teacher is not burdened with financial problems. And also, 
the classes are given in summer as well as weekends, and so the 
teachers can take time and then really do this very intensive 
program.
    Last year, with the support of the National Science 
Foundation, we also started a new program for the middle school 
teachers. This is called the Integrated Science Teacher 
Program. It is important to recognize that in middle school 
today, teachers are required to teach integrated fields of 
science, including physics, biology, chemistry, and also earth 
science, but yet even these content-prepared teachers, when 
they were in college, they were primarily majoring in one of 
the fields. So we designed this program specifically for middle 
school teachers with courses covering all the fields I 
mentioned.
    I have to say that the teachers' response to our programs 
are very enthusiastic. They actually are the people who 
recognize the importance of content preparation in their 
dealing with students. They need to feel confident themselves 
before they can transmit the confidence about teaching science, 
complex science issues, to the students.
    We have teachers who would drive hours from Central 
Pennsylvania, Northern Jersey, and Maryland to attend classes 
in Philadelphia. We even have a teacher who would take a 
sabbatical from Oregon to come to Philadelphia to do this 
program.
    I will tell you a little bit about it. Of the 120 teachers 
so far admitted to the program, more than 72 percent did not 
have chemistry education prior to attending program. Also, they 
all are required to teach chemistry in their schools.
    The school districts are also very enthusiastic. We have 36 
school districts now in formal partnership with ours in running 
this program.
    I see the red light, so I know my time is up. I would just 
say that this kind of program, if one were to replicate it in 
other places, it is important that we have these programs to 
have a financial incentive for the teachers so they can attend 
the classes. Time--they should be conducted at the time that is 
not interfering with their teaching duties. There should be 
financial incentives for the institution of higher education to 
participate in this kind of effort. And finally, the State and 
local school districts can also participate through teacher 
certification requirements to encourage the teachers to 
participate.
    Thank you.
    Senator Alexander. Thank you, Dr. Dai.
    [The prepared statement of Mr. Dai follows:]
                   Prepared Statement of Hai-Lung Dai
    Among the many factors that contribute to the current alarming 
State of pre-college science education in the United States, as 
indicated by the poor performance in science test scores and students' 
low interests in pursuing science and technology related careers, is 
the quality of teachers teaching science in pre-college education. A 
major reason for the concern of teacher quality is the lack of content 
preparation of science, and likewise math, teachers.
    Many anecdotal examples provided by students show that many 
students attribute their lack of interests in science to a bad teacher 
once in their learning experience. The reverse is equally true: A good 
teacher at one point during their learning may inspire interest and 
more importantly instill confidence in students' dealing with 
challenging and abstract subjects. A teacher who can teach and inspire 
has to be confident in the subject he/she is teaching. Without 
sufficient content knowledge, a teacher can hardly possess such 
confidence.
    For short of content-prepared teachers, ``teaching out of field'' 
has been identified by the education community (see works by Richard 
Ingersoll, Graduate School of Education, University of Pennsylvania) as 
an increasingly problematic and important practice in math and science 
education within the last decade in American high schools. A casual 
survey of the 80 or so freshman at the University of Pennsylvania in 
2004 and 2005 who intended to major in Chemistry and Biochemistry 
showed that nearly all of them had taken AP chemistry in high school 
but nearly half of them were taught by teachers whose original subject 
of expertise were not chemistry. Often it was biology. One should note 
that most of these students came from schools/school districts that 
were deemed successful.
    In 1999, a survey conducted by Penn's Department of Chemistry found 
that in the Philadelphia School District, a large urban school district 
with more than 200,000 students, there were only 37 chemistry teachers. 
Of these teachers, about half did not have chemistry as a major in 
college.
    A significant reason for allowing teachers who do not have 
sufficient content training to teach hardcore science courses is the 
unique American education philosophy, championed by the famous 
education philosopher John Dewey, that how one teaches is more 
important than what one teaches. A consequence of this philosophy 
materialized in education practice is that teacher certification 
requires pedagogy training but not necessarily content training.
    The other major practice that has led to the lack of content 
requirement in teacher certification, in the view of this observer who 
was born and educated through college abroad, is that in the U.S. K-12 
education is a local/state matter. In most other countries K-12 
education is a central government concern that involves institutions of 
higher education in matters related to setting curricular and 
standards, and thus also requirements of teacher certification. It is 
hard to imagine similar practices happen in local school boards 
involving institutions of higher education.
    The State of Pennsylvania only recently established the content 
requirements on science teacher certification. But even this new 
requirement appears to be relatively inadequate in comparing with 
teacher certification requirements in many countries in Asia and 
Europe. In Pennsylvania, to be a secondary school science teacher 
requires 27 credit hours of study in the discipline area in college. To 
be a middle school science teacher requires taking only 10 credit hours 
of science courses in college. Basically, any students who have taken 
only 3 basic science courses and a laboratory may satisfy this 
requirement. By comparison, in Taiwan, where I grew up, and Singapore, 
whose students consistently scored the best in the world, a science 
teacher has to major in a science subject in college with an additional 
year of pedagogy training. A BS in science in these countries usually 
requires at least 70 credit hours study on science subjects. A BS 
degree in these countries, like in Germany and some other European 
countries, amounts to a master degree in the United States.
    Many mechanisms have been set up to address the problem of the lack 
of content knowledge in science teachers. Many workshop and short-
course type programs have been conducted by professional societies, 
institutions of higher learning, and even industries to address 
specific content issues that may have been encountered by teachers in 
teaching. These activities would be highly valuable, should the 
participating teachers already have a solid base in content knowledge 
on the subject they teach. Such solid base in content knowledge can be 
best acquired through organized learning in a degree program.
    In 2000, the Chemistry Department at the University of 
Pennsylvania, in collaboration with the Graduate School of Education, 
launched a new Master of Chemistry Education degree program for 
training 20 in-service science teachers each year. This program is 
designed with the following features:

    (1) The 10 courses in the curriculum emphasize chemistry content (8 
courses) and pedagogy in science education (2 courses).
    (2) Full scholarship is provided for relieving the financial burden 
of participating in-service teachers.
    (3) The classes are conducted over 26 months: three summers (full 
time, each summer 2 courses) and 2 academic years (alternating Saturday 
mornings, 2 courses per academic year) so not to interfere with in-
service teacher job functions.
    (4) All courses are specifically designed for teachers. Science 
content is presented along with up-to-date technology. Importance of 
science and technology to society and humanity is included. Science 
content is blended in with inquiry-based teaching methods in almost all 
courses.
    (5) A cohort system is used and a teacher resource center 
established to provide support for learning of the teachers and 
implementing reforms in their own classrooms.

    This program has been supported primarily by scholarships provided 
by Penn, donations from local industry (such as Rohm and Hass), and a 
seed grant from the National Science Foundation.
    In 2005, with substantial new funding from the NSF through the Math 
and Science Partnership Program, the Penn Science Teacher Institute was 
established with the continuing MCE program and a new Master of 
Integrated Science Program aimed at training in-service middle school 
science teachers. The latter program involves courses offered in 
Biology, Environmental and Earth Sciences, Mathematics, and Physics, in 
addition to Chemistry and Science Education. Now every year, 40 new 
teachers are trained through these programs.
    Teachers' response to these programs as a form of professional 
training has been very enthusiastic. Many teachers do recognize the 
importance of content preparation and are willing to commit major 
effort and time to gain this content knowledge. Many teachers drove 
hours from central Pennsylvania, Northern Jersey, and Maryland to 
attend classes. One teacher from Oregon even took sabbatical time and 
summers to complete the degree. After 6 cohorts (120 chemistry teachers 
admitted), the MCE program still has a 2-1 application to admission 
ratio. Here are some quotes showing how teacher graduates feel about 
the impact of this program on their teaching:

    ``Knowing the subject more makes teachable moments more common.'' 
``If you know the subject, you find the subject in everything.'' (From 
a teacher whose college major was political science.)
    ``I feel my content base is much better. Although I came to the MCE 
program with a fairly solid chemistry background, I feel much more 
knowledgeable in current chemical research and I definitely have a much 
better organic and inorganic chemistry base. I have also implemented a 
great deal of environmental chemistry issues into my classroom.'' (From 
a teacher who had a chemistry degree sometime ago.)
    ``I was not a lab person. But the labs we did in Organic and Chem. 
Ed really helped me to change my attitude toward lab. As a result of 
these courses, I started to incorporate more labs in my lesson plans. I 
made sure that I discussed observations that my students make at the 
macro levels and I also explained the reactions that were taking place 
at the micro level.''

    Many of the teacher graduates have become teacher leaders in their 
schools:

    ``Last year I lead a professional development for my colleagues. I 
demonstrated how to use the Penn Instructional model with a group of 
students. I also presented a short report at forum for K-12 educators 
at Bryn Mawr College. I discussed how MCE has enhanced my teaching.''
    ``After my first summer in MCE, I was asked to give a presentation 
to the faculty at my school on the use of PowerPoint in the classroom. 
Additionally, I was asked to make a presentation last summer on the use 
of the PIM for lab work. This presentation was part of a teacher's 
summer workshop at Villanova University.''
    ``I am conducting a professional workshop on safer chemical 
laboratory exercises later in the year sponsored by an EPA grant that I 
received through Rutgers University.''

    Of the 120 teachers admitted into the MCE program so far, at the 
time of admission all of them were teaching or designated to teach 
chemistry. Seventy-two percent of them did not have chemistry as either 
a major or minor of study in college. Most of their majors were in 
biology and science education, some in other science and engineering 
disciplines, and a few in social sciences or humanities. Only 15 
percent had chemistry as a major and 13 percent as a minor in college. 
The problem is most serious among our urban school teacher-participants 
where nearly all of them did not have chemistry as a major in college. 
Even among our nonurban school teacher-participants, more than half did 
not have chemistry as either a major or minor in their college studies.
    The response to these degree programs from the School Districts has 
been highly positive as well. Philadelphia School District has played 
an important role in early discussion that led to the organization of 
the Institute and encouraged its teachers to apply to this program. 
Thirty-six schools/SD's in the greater Philadelphia area are now formal 
partners with the Institute in that they not only send teacher 
participants to the degree programs but also supervisors of the 
teachers to the Institute's Administrator Academy workshops aimed at 
providing assistance in science education in schools.
    From these teacher participants, quite a few interesting 
observations were made. We found that even among chemistry teachers, in 
addition to the lack of chemistry understanding there has been a 
serious math phobia. Most teachers before entering the program cannot 
handle slightly complex mathematical operations that are needed in 
their classroom. It is not hard to imagine that this math phobia would 
be highly contagious and transferable to their students. Many teachers 
were great problem-solvers but their ability to apply problem solving 
skills to the subject they are teaching were handicapped by their 
limited content knowledge. And then, most teachers were unfamiliar with 
the communication tools now commonly available in the new electronic 
information age such as Web site creation/edition, powerpoint 
presentation, etc.
    It is important to recognize that for an intensive, content-based 
degree program to work, several ingredients are necessary: Scholarship 
should be provided so it does not present a financial burden to teacher 
participants; Classes should be conducted at times not interfering with 
teachers' own teaching schedule and effort; Curricular and courses 
should be designed specifically for teachers.
    There should be financial incentives for encouraging institutions 
of higher education to set up or participate in such programs across 
the country so larger scale impact can be exerted. There should also be 
incentives for in-service teachers to encourage them to take on such 
intensive, content-knowledge based programs as means to strengthening 
their content preparation as well as teaching skills. States and local 
SD's should be encouraged to instill mechanisms or through 
certification process to require sufficient content preparation and 
renewed pedagogy training for teachers. Some States such as New York 
now requires teachers to obtain a master degree within 5 years of 
initial certification is a right direction, although 5 years may be too 
short to create a demanding situation for teachers to participate in a 
program like the MCE or MISE which takes 26 months to complete.
    Finally, it is important to recognize that improving teacher 
content knowledge and science education pedagogy is only one important 
factor in the whole effort to improve students' interests and 
capability in science and the science literacy of the general 
population. Other factors such as discipline in learning and curricular 
requirement in pre-college education have to be considered as well. For 
example, increasingly, at a time that AP courses are becoming more of a 
norm, more and more high school students now skip the basic level 
course and take the AP course as the only course in that particular 
subject area.
                 Supplemental Statement of Hai-Lung Dai

No Teacher Left Behind

    On Jan. 31, 2006, the 400 participants in the National Science 
Foundation Math and Science Partnership Conference on Teacher Quality 
identified ``content knowledge'' as the #1 criterion for an effective 
teacher. Yet the lack of content knowledge is the most serious problem 
affecting the effectiveness of American teachers. This problem is now 
widely recognized based on the impression I gathered in the hearing on 
Feb. 28, 2006 from the statements made by the presiding Senators and 
all the witnesses.
    With regard to how to address this problem, there appears to have 
two basic approaches--one is to provide specific needs in content 
knowledge through short-term workshops or short courses; the other is 
the formal master degree program such as those provided by the Penn 
Science Teacher Institute that aims to build a solid content knowledge 
foundation in teachers.
    It is important to recognize that both approaches have different 
purposes and aim at different audiences and should both be practiced. 
The short-term trainings are professional development tools for 
teachers who have had content training and wish to be continually 
educated. The degree program is needed for teachers who have not had 
formal training in content.
    Among current teachers who are teaching chemistry, physics, math . 
. . in high school, likely a college level AP course, more than 60 
percent of them do not have a college degree in the subject they teach. 
For these teachers, the short-term approach, though less expansive to 
conduct, will not be sufficient. An apparent analogy: each Law and 
Order episode may serve as a workshop training topic for a person who 
is interested in law. But we would not advocate a person who did not go 
through law school to get a license and practice law after watching 100 
episodes of Law and Order.
    While short term measures can be used to exert more immediate 
impact in improving teacher effectiveness, the longer term degree 
programs should be used as the primary means to address the problem in 
a fundamental way. The Government launched the No Child Left Behind 
program 5 years ago to fundamentally change the landscape of K-12 
education. Now it is time to have a No Teacher Left Behind campaign to 
ensure the good teachers of America who struggle with the lack of 
content knowledge not to continue to suffer, and fundamentally change 
the paradigm of teacher training in this country.

    Senator Alexander. Dr. Garcia. Senator Bingaman, would you 
like to make any comments about Dr. Garcia before she 
testifies?
    Senator Bingaman. Just that Dr. Garcia does a great job as 
head of our education effort in New Mexico and she comes here 
extremely well recommended. I am very pleased to have her here 
and look forward to her testimony, and then I have a couple of 
questions to ask her.
    Senator Alexander. Dr. Garcia, and then we will go to Ms. 
Flanagan, and then we will go back to Senator Bingaman.
    Ms. Garcia. Thank you. Good morning, Senator Alexander, 
members of the committee, Senator Isakson, Senator Ensign, and, 
of course, Senator Bingaman. Greetings from the Land of 
Enchantment. We miss you. It is good to see you.
    I want to thank you for inviting me to be a part of this 
esteemed panel, and I do have my prepared comments, and looking 
at the 5 minutes and hearing your conversation, there are about 
six things that I want to tell you first and then I will go 
through my comments. In hearing your comments, you are very 
much on track with what we are seeing in the field and what I 
am seeing in our State and I just want to comment on a few 
things that I have heard this morning.
    I have heard a need of concentrating, being able to get 
teachers to inner-city schools, and I have heard that term 
used, and I want to caution you to not stick with inner-city 
but think of rural States like New Mexico, where half of my 
districts are districts of under 1,000 kids. So high-needs 
schools, if that language can be there, where we look at 
poverty and high need, because we have some of the same 
challenges as you may have in the cities with inner-city 
schools.
    I can't applaud you more for the concept of virtual 
classrooms. We have tried to move in New Mexico to use cyber 
academies and use hubs where we have the expertise to be able 
to teach out in these communities. I agree completely with 
Senator Isakson that not only does it serve to help deliver 
content, it also helps as a professional development tool, as 
well.
    We are fortunate in that we have two laboratories in New 
Mexico, and partnering with those national laboratories and 
universities, I think is key.
    Having been, I think, a long-term student forever, and 
having received all three of my degrees from the University of 
New Mexico, but there has always been a big divide between arts 
and sciences and colleges of education. I think I heard Dr. 
Rankin talk about that. But I think that that cannot be 
underestimated, that division between arts and sciences and 
colleges of education. Oftentimes, those professors that choose 
to work with colleges of education oftentimes are seen with not 
the same esteem as those that are pursuing research in 
mathematics and sciences. So we need to provide incentives so 
that there will be more of a motivation for professors to do 
that.
    Then I also wanted to talk about the importance of 
standards. Our standards have been recognized as having more 
rigorous standards and higher expectations from students and 
that with your standards, you can include pre-algebraic 
concepts and actually algebraic concepts in the K through 8 
curriculum so that we don't need to wait until 8th grade until 
we start.
    So with that, I have got about 2 minutes left and I am 
going to hit some of my major comments that I wanted to make in 
my statement. First of all, I want to thank Senator Bingaman 
and recognize him for his leadership on this issue and for 
understanding the importance of quality education. You have 
been a real champion to us, Senator, and we appreciate you for 
helping us in both K-12 and postsecondary education.
    We are finally getting our reform efforts moving ahead in 
New Mexico. As I said, we have rigorous standards that have 
been recognized nationally and now it is getting the teachers 
to teach those standards and the students to achieve them, 
which is certainly key, and we finally have an accountability 
system that is aligned.
    We have two outstanding programs that we believe have 
helped move the math initiative forward. The Gaston Math 
Initiative and the Math and Science Academies are helping close 
the achievement gap in our State.
    I also want to talk about the fact that we have a new 
three-tier licensure system that requires our teachers to pass 
basic skills in teacher competency and also that rewards 
teachers for higher levels of educational attainment.
    New Mexico has a rich culture, with 54 percent of our 
students is Hispanic and 11 percent Native American. As I said 
earlier, we are home for national labs in Los Alamos and Sandia 
and we have many high-tech firms. Labs annually hire over 2,500 
college students. However, while we have this great tradition 
of scientific discovery, we often find that we have to import 
people to these positions.
    Our State is not without our challenges. We have high 
poverty. We have issues with language. We also have issues with 
the achievement gap. Our strong standards and rigorous teacher 
licensure requirements are providing the structure within which 
we can improve educational opportunities for our students.
    I believe that in 2005, we had a Statewide math and science 
town hall, and I am going to leave that document for you, but 
many of the recommendations align with the PACE Act, which we 
think it will really help us. We also believe that teachers 
have to improve their content knowledge. I believe PACE would 
help New Mexico's efforts in a number of critical ways.
    We also need to have teachers skilled in integrating 
technology into math and science classrooms. As we talk about 
how we are teaching our students, we also have to remember that 
their world is different from when we were in school and we 
must integrate technology more.
    I can tell you also that the scholarship provision would 
provide great incentives for New Mexico students to become math 
or science teachers. And equally important, PACE provides 
opportunities for current teachers in the workforce to go back 
to school on a flexible schedule. I also believe the 
fellowships for teachers who graduate from these programs will 
go a long way in making sure our teachers get the pay that they 
deserve.
    I know that your budgets are tight here in Washington, but 
I believe these provisions, coupled with the right financial 
support and with our efforts in our State, would make a 
tremendous difference in moving science and math and keeping 
America's competitive edge.
    Thank you so much for the opportunity.
    [The prepared statement of Ms. Garcia follows:]
                 Prepared Statement of Veronica Garcia
    Chairman Alexander, Ranking Member Dodd, thank you for inviting me 
to participate in this very important hearing. Strengthening the math 
and science competencies of our K-12 teachers is critically important. 
As clearly spelled out in the National Academies report, ``Rising Above 
the Gathering Storm,'' improving the teaching skills of our math and 
science educators is of paramount concern to many of us.
    I'd also like to thank both of you for your longstanding work on 
this issue, and for introducing the PACE Act. And I'd like to 
particularly recognize Senator Bingaman for his leadership on this 
issue, and for always understanding the importance of a quality 
education. For nearly 24 years in the U.S. Senate, he has been fighting 
to ensure a greater Federal investment in both K-12 and postsecondary 
education.
    As Secretary of Education for the State of New Mexico, I am proud 
to say that we have made some significant progress in New Mexico in 
recent years. New Mexico is now widely recognized as one of the top 
States in the country for setting rigorous academic content standards, 
particularly in science and math.
    New Mexico is also recognized for its rigorous teacher licensure 
requirements. Our prospective teachers must pass basic-skills and 
teacher-competency assessments, as well as subject-knowledge tests to 
earn their initial licenses. Our veteran teachers must undergo 
performance assessments to reach a more advanced stage of 
certification.
    As a former principal and superintendent, I can tell you how 
important strong standards, accountability, and rigorous teacher 
licensure requirements are.
    Our State has a very rich culture, with 43 percent of the 
population Hispanic, and nearly 10 percent Native American. We are also 
home to two of this country's greatest National Labs, Los Alamos and 
Sandia National Labs, as well as many high-tech firms and industries. 
We have a strong and dynamic tradition of great scientific discovery.
    But, our State is not without challenges. We rank among the highest 
in the Nation for people living in poverty. Sadly, New Mexico ranks 
first in the country in rural child poverty. High quality education is 
the key to changing this statistic. Our capacity is great, but so are 
our challenges.
    While strong standards and rigorous teacher licensure requirements 
are critical, they just provide the structure within which we can 
improve educational opportunities. Teachers must truly understand math 
and science if they are to teach using the rigorous academic standards 
for math and science that we have established in New Mexico.
    We are taking some important steps to do that. We just passed 
legislation to create a Math and Science Bureau within the NM Public 
Education Department, as well as making a significant investment for 
teacher professional development at math and science summer institutes. 
We also pushed through significant increases to improve access to 
Advanced Placement programs throughout New Mexico.
    But we need to do more. We need to ensure that all of our teachers 
have the content knowledge, the math and science competencies that are 
necessary to teach K-12. And we need to keep these teachers in our 
classrooms. I believe PACE would help New Mexico's efforts in a number 
of critical ways.
    PACE would provide New Mexico with additional tools and resources 
necessary to ensure that both our current and future teaching workforce 
have the content knowledge in math and science that our State requires. 
By providing grants to our universities to develop content-rich math 
and science education programs, our aspiring teachers will have the 
content knowledge necessary to effectively teach math and science at 
all grades, K-12.
    As a former principal, I can tell you, a teacher who is 
knowledgeable and passionate about the subject she teaches can make all 
the difference in the world to a student.
    And, the scholarship provisions would provide great incentives for 
New Mexico's students to become math or science teachers because they 
would cover the entire cost of tuition and other education expenses at 
every university in New Mexico.
    Equally important, PACE provides opportunities for our current 
teaching workforce to go back to school on a flexible schedule, with 
tuition reimbursement, and earn a master's degree in math or science 
education.
    Further, I also believe the fellowships for teachers who graduate 
from these programs will go a long way in making sure our teachers get 
the pay they so earnestly deserve. These fellowships may just provide 
new teachers with the compensation they need to stay in the classrooms. 
Also, the fellowships for the newly-minted master teachers are a great 
compliment to New Mexico's 3-tier licensure system, which rewards 
further education and additional responsibilities.
    I know education budgets are tight here in Washington, but I 
believe if these provisions are enacted, and funded, coupled with our 
efforts at the State level, they very well may provide our students 
with the teachers they need to make New Mexico the true leader in 
science and technology.
    Thank you for the opportunity to speak with you today.

    Senator Alexander. Thank you, Dr. Garcia.
    Ms. Flanagan, I know Senator Dodd wanted to especially 
welcome you, but he is over in the Rules Committee keeping us 
all honest, so I will welcome you. I will give you a special 
welcome from him and we look forward to your testimony.
    Ms. Flanagan. Thank you. Good morning, Chairman Alexander 
and members of the subcommittee. I am a middle school math 
teacher at Burr School, a public school in Hartford, CT. I am 
also a member of the Hartford Federation of Teachers-AFT. It is 
an honor to be here to testify on what I believe is necessary 
to help prepare, train, and support our Nation's public school 
math and science teachers.
    I have been teaching in Hartford for the past 7 years and 
see 125 students on a daily basis. The courses I teach include 
algebra, pre-algebra, and preparation for the Connecticut 
Mastery Test, also known as the CMT. I have made Connecticut's 
strict requirements to become a teacher and am considered 
highly qualified under the No Child Left Behind Act. I am proud 
to say that my students are meeting high standards in math and 
learning what they need to go on to higher-level math courses 
in high school. Becoming a highly qualified and successful 
teacher has been a rigorous and challenging journey, with many 
contributing key factors from the Federal, State, and local 
levels.
    I was born with a love for math. This affinity for numbers 
became a love affair when my 8th grade algebra teacher, Mr. 
Fuentes, introduced me to the Connecticut Pre-Engineering 
Program, also known as CPEP. This one-of-a-kind program in 
Connecticut was established to encourage students at a young 
age to aspire to careers in the fields of mathematics, science, 
engineering, and technology. At the time, having recently moved 
from Puerto Rico, I was struggling with the English language 
but sought refuge in my success in the pre-engineering program.
    That year proved pivotal after I won first place in 
Connecticut's Statewide bridge building competition. I knew at 
that point that I wanted to become an engineer and worked very 
hard to achieve my goal of getting into the University of 
Connecticut's engineering program. There were, however, some 
challenges. Although I graduated as salutorian of my class, 
English was my second language and my SAT scores were merely 
average. Nevertheless, I was awarded approximately $30,000 in 
scholarships from different agencies and foundations. UConn 
accepted me into its engineering program with one stipulation. 
My acceptance into the engineering program would only be 
considered upon my successful completion of its Bridge Program.
    Sponsored by the School of Engineering in coordination with 
the Engineering Diversity Program, the Bridge Program provides 
a 6-week intensive summer program to prepare underrepresented 
students like myself for the engineering curriculum at UConn, 
and it worked. I was part of UConn's School of Engineering for 
3 years until I began to question my purpose in life.
    I thought about how my 8th grade teacher, Mr. Fuentes, had 
challenged and inspired me to become involved and use my 
talents, ability, and intelligence to take me to the highest 
levels. Mr. Fuentes was the catalyst in a long series of 
fortunate events. I wanted to have that kind of an effect on 
people, specifically children and young adults. I decided to 
apply to UConn's School of Education and I was admitted into 
UConn's IBM program, a 5-year integrated Bachelor's and 
Master's degree program. It prepares students for the real-
world challenges of teaching through courses in curriculum 
development, assessment, and instruction, and teaching 
internships in both rural and urban settings. I graduated with 
a Master's degree in elementary education and a minor in 
mathematics. I also gained a cross-endorsement in middle school 
mathematics.
    My first teaching assignment began in 1999 in a title I K-8 
school in Hartford, CT. Mentors were scarce, classrooms were 
overcrowded, and discipline and student achievement were areas 
of major concern. I thought about quitting every day for 3 
months. It would definitely have been easier to go back to 
engineering, where I would have made three times what I was 
making. Also, I wouldn't have been responsible for 140 fragile 
teenagers who had bigger problems in their lives than worrying 
about math or passing the CMT.
    While not all engineers can be teachers, I knew that 
teaching was my talent and that this was not something I would 
walk away from. I needed help. Thankfully, Mr. William Grupp, a 
veteran math teacher of 23 years, became my mentor. Having a 
mentor and a supportive administration allowed me to focus on 
what really mattered. That was developing my students' math 
skills, challenging and increasing their intelligence, and 
motivating them to do their best. This support kept me in the 
classroom.
    By my third year of teaching, I had produced a teaching 
portfolio that was ranked third in Connecticut and was used for 
teacher training purposes. My students had the highest gain in 
the mathematics component of the CMT in the City of Hartford, 
and I was given the Teacher of the Year Award. Hartford's Board 
of Education, the City of Hartford, and the State of 
Connecticut realized the importance of teacher involvement and 
leadership training and have shown appreciation for my 
experience, knowledge, time, and efforts in the form of 
financial compensation, class release time, and additional 
resources.
    In addition, the growing focus on the importance of 
professional development and support for teachers has been of 
great benefit to me. Born out of concern and the need for 
academic achievement in math and science, Wesleyan University 
began the Project to Increase Mastery in Math and Science. The 
PIMMS project is a professional development resource funded by 
Federal grants which offers a series of summer fellowship 
programs for teachers.
    I am also looking forward to participating in a 
professional development program sponsored by the AFT, Research 
and Dissemination Program, ER&D. This union-sponsored, 
research-based professional development program, Thinking 
Mathematics, currently offers three courses for elementary 
school teachers and will soon add a middle school component. 
Comparative studies in Scranton, PA and Tallahassee, FL have 
found that students of teachers who have taken Thinking Math 
outscore peers whose teachers have not.
    Another wonderful professional development program being 
used in Hartford comes from the University of Pittsburgh's 
Learning Research and Development Center: Institute for 
Learning. The institute offers a 3-year instructional 
leadership program to develop leadership skills to help support 
higher achievement for diverse student populations.
    I am currently finishing my 6th-year degree in educational 
leadership at the University of Connecticut. This certification 
will allow me to step into the position of Hartford District 
Middle School Math Coach so that I can reach all Hartford 
middle school math students by working with Hartford teachers 
one-on-one, modeling, supporting, and facilitating professional 
development workshops. Like the City of Hartford, Hartford 
students are on the rise and I am and will continue to be part 
of that success.
    But my success as a math teacher cannot be attributed to 
any one thing. The journey began with a love for math, but I 
could not have come as far as I did without the financial aid 
through grants and scholarships. Without the city's teachers 
who saw potential and challenged and motivated me, I would not 
be the person I am today. UConn was able to help me with the 
Bridge Program, which is supported through Federal grants and 
the university's money. Hartford's Board of Education provided 
time, resources, and financial compensation for increased 
involvement and professional development, also funded by grants 
as well as taxpayers' money. I have also been supported 
financially through Federal and State grants that fund programs 
like CPEP and the BEST program in Connecticut.
    The PACE bill will help efforts to recruit qualified 
American science teachers into teaching, particularly in hard-
to-staff schools like mine. In addition, the bill will afford 
current teachers the opportunity to obtain advanced degrees in 
their subject areas. While these are important steps, I believe 
more is needed, including assistance for other teachers once 
they are in the classroom, such as mentoring for new teachers, 
and support for teachers taking leadership roles is also 
needed.
    We also need to look at the issue of school infrastructure. 
Even the most well-prepared teachers, for example, cannot 
provide the best possible opportunities for students to learn 
without adequate facilities. This is particularly true for 
math, science, and technology. Many of our public schools, 
particularly in urban areas like Hartford, lack the most basic 
physical resources, including up-to-date laboratories.
    I urge you to take my experience into consideration. Where 
would students like me be without the help of Federal grants 
and the support of Federal, State, and local programs? I 
represent the interests of students all across America who want 
to succeed in math, science, and engineering. More importantly, 
I represent those students interested in math, science, and 
engineering who want to become teachers. Let us give them a way 
to get there.
    Thank you.
    Senator Alexander. Thank you, Ms. Flanagan. In a hearing 
about teachers, it is nice to have a Teacher of the Year.
    [The prepared statement of Ms. Flanagan follows:]
                 Prepared Statement of Dolores Flanagan
    Good Morning, Chairman Alexander, Senator Dodd and members of the 
Subcommittee on Education and Early Childhood Development. My name is 
Dolores Flanagan and I am a middle school math teacher at Burr School, 
a public school in Hartford, Connecticut. I am also a member of the 
Hartford Federation of Teachers/AFT. It is an honor to be here to 
testify on what I believe is necessary to help prepare, train, and 
support our Nation's public school math and science teachers.
    I have been teaching in Hartford for the past 7 years and see 125 
students on a daily basis. The courses I teach include algebra, pre-
algebra and preparation for the Connecticut Mastery Test, known as the 
CMT. I have met Connecticut's strict requirements to become a teacher 
and am considered highly qualified under the No Child Left Behind Act. 
I am proud to say that my students are meeting high standards in math 
and learning what they need to go on to higher-level math courses in 
high school. Becoming a highly qualified and successful teacher has 
been a rigorous and challenging journey, with many contributing key 
factors from the Federal, State and local levels.
    I was born with a love for math. This affinity for numbers became a 
love affair when my 8th-grade algebra teacher, Mr. Fuentes, introduced 
me to the Connecticut Pre-Engineering Program (CPEP). This one-of-a-
kind program in Connecticut was established to encourage students at a 
young age to aspire to careers in the fields of mathematics, science, 
engineering and technology. At the time, having recently moved from 
Puerto Rico, I was struggling with the English language but sought 
refuge in my success in the pre-engineering program. That year proved 
pivotal after I won first place in Connecticut's statewide Bridge 
Building Competition. I didn't know it at the time but my interest in 
math was broadening. The stage for inquiry was set and I began to 
develop interest in engineering as well as science. I went on to win 
first place in the Bridge Building Competition for a second consecutive 
year and became a finalist at Connecticut's Statewide Science Fair with 
a 3-year experiment, ``The Effects of Plant Hormones on Plant Growth.''
    I knew at that point that I wanted to become an engineer and worked 
very hard to achieve my goal of getting into the University of 
Connecticut's (UConn) engineering program. There were, however, some 
challenges. Although I graduated as salutatorian of my class, English 
was my second language and my SAT scores were merely average. 
Nevertheless, I was awarded approximately $30,000 in scholarships from 
different agencies and foundations such as the Fox Scholar Foundation 
and the Society of Hispanic Women Engineers. UConn accepted me into its 
engineering program with one stipulation--my acceptance into the 
engineering program would only be considered upon my successful 
completion of its ``Bridge'' Program. Sponsored by the School of 
Engineering, in coordination with the Engineering Diversity Program, 
the Bridge Program provides a 6-week intensive study of mathematics, 
chemistry, physics and computers. The purpose of the summer program is 
``to prepare underrepresented students for the engineering curriculum 
at UConn, present an orientation to careers in engineering and to 
familiarize students with the University of Connecticut and the college 
experience'' (www.engr.uconn.edu/edpweb/bridge/detail.html). It worked. 
I was part of UConn's School of Engineering for 3 years until I began 
to question my purpose in life.
    I thought about how my 8th-grade teacher had challenged and 
inspired me to become involved and use my talents, ability and 
intelligence to take me to the highest levels. Mr. Fuentes was the 
catalyst in a long series of fortunate events. I wanted to have that 
kind of an effect on people, specifically children and young adults. I 
decided to apply to UConn's School of Education. I was admitted into 
UConn's IBM Program, a 5-year integrated bachelor's and master's degree 
program. Its mission is to prepare students for the real-world 
challenges of teaching through courses in curriculum development, 
assessment and instruction, opportunities for application of knowledge 
such as teaching internships in both rural and urban settings, 
seminars, workshops, tutoring and personal counseling. Two years later 
I graduated from the University of Connecticut with a master's degree 
in elementary education and a minor in math. I also gained a cross-
endorsement in middle school mathematics.
    My first teaching assignment began in August of 1999, in a title I, 
K-8 school in Hartford, Connecticut. Due to the teacher shortage in the 
areas of math and science and that fact that I would be teaching in a 
title I school, the Board of Education was able to start me at level 5 
of our teachers' salary grid, when new teachers usually start at level 
1. The compensation for my knowledge of math was a bonus and made the 
position of math teacher more attractive. Nevertheless, mentors were 
scarce, classrooms were overcrowded, and discipline and student 
achievement were areas of major concern. I thought about quitting every 
day for 3 months. It would definitely have been easier to go back to 
engineering where I would have made three times what I was making. 
Furthermore, I wouldn't have been responsible for 140 fragile teenagers 
who had bigger problems in their lives than worrying about math or 
passing the CMT. While not all engineers can be teachers, I knew that 
teaching was my talent and that this was not something I would walk 
away from. I needed help.
    Thankfully, Mr. William Grupp, a veteran math teacher of 23 years, 
became my mentor. Having a mentor and a supportive administration 
allowed me to focus on what really mattered: developing my students' 
math skills, challenging and increasing their intelligence and 
motivating them to do their best. This support kept me in the 
classroom.
    By my 3rd year of teaching, I had produced a teaching portfolio 
that was ranked third in Connecticut and was used for teacher training 
purposes. My students had the highest gain in the mathematics component 
of the CMT in the city of Hartford, and I was given the Teacher of the 
Year award. Since then, I have become part of Hartford's Mathematics 
Curriculum Writing team, a Numeric Math Coach, a certified Math and 
Science Mentor, a member of the Hartford Mayor's Educational Task 
Force, an elected member of the Hartford Federation of Teachers 
Executive Board and a mathematics teacher portfolio scorer for 
Connecticut's BEST Program, the State's beginning teacher and educator 
support and training program. Hartford's Board of Education, the city 
of Hartford and the State of Connecticut realize the importance of 
teacher involvement and leadership training in the area of mathematics 
and have shown appreciation for my experience, knowledge, time and 
efforts in the form of financial compensation, class release time and 
additional resources.
    In addition, the growing focus on the importance of professional 
development as an instructional tool and support for teachers has been 
of great benefit to me. Born out of concern and the need for academic 
achievement in math and science, Wesleyan University began the Project 
to Increase Mastery in Math and Science (PIMMS). The PIMMS project is a 
professional development resource funded by Federal grants, which 
offers a series of summer fellowship programs for teachers. These two-
summer, multi-week institutes are designed not only to increase the 
participants' content knowledge but also to provide them with new 
strategies for teaching, including how best to use technology. The 
institutes also develop participants' leadership capabilities so they 
can share their experience and knowledge with their colleagues. The 
director of PIMMS, Mike Zebarth, stated that the record number of 
grants received allowed them to conduct summer workshops for 150 
elementary and middle school teachers in Hartford, just in the past 
year. I have been one of those fortunate teachers.
    I am also looking forward to participating in a professional 
development program sponsored by the American Federation of Teachers 
(AFT) Research and Dissemination Program (ER&D). This union-sponsored, 
research-based professional development program, Thinking Mathematics, 
currently offers three courses for elementary school teachers and will 
soon add a middle school component. It is based on research, consistent 
with the findings of the National Research Council's Adding It Up 
report, on how children learn mathematics. It also draws on lessons 
from international studies such as TIMSS. As the research on how 
children learn math is examined, teachers discuss the implications for 
their classrooms and increase their own mathematical knowledge. They 
learn why students make common errors and the core ideas of basic 
arithmetic that lay foundations for higher mathematics. Comparative 
studies in Scranton, Pennsylvania, and Tallahassee, Florida, have found 
that students of teachers who have taken Thinking Math outscore peers 
whose teachers have not.
    Another wonderful professional development program being used in 
Hartford comes from the University of Pittsburgh's Learning Research 
and Development Center: Institute for Learning. The institute offers a 
3-year instructional leadership program to develop leadership skills to 
help support higher achievement for diverse student populations.
    I am currently finishing my 6-year degree in educational leadership 
at the University of Connecticut and have met all of Connecticut's 
requirements to be certified as an administrator. This certification 
will allow me to step into the position of Hartford district middle 
school math coach. The position will provide me with opportunities to 
reach all Hartford middle school math students by working with Hartford 
teachers one on one, modeling, supporting and facilitating professional 
development workshops. Like the city of Hartford, Hartford students are 
on the rise, and I am and will continue to be a part of that success.
    My success as a math teacher cannot be attributed to any one thing. 
There have been many contributing factors in my journey as a math 
teacher. The journey began with a love for math, but I could not have 
come as far as I did without the financial aid and support of the city 
of Hartford, through grants and scholarships. Without those grants and 
scholarships I never could have gone to college. Without the city's 
teachers, who saw potential and challenged and motivated me, I would 
not be the person I am today. UConn was able to help me with the Bridge 
Program, which is supported through Federal grants and the university. 
Hartford's Board of Education provided time, resources and financial 
compensation for increased involvement and professional development 
also funded by grants as well as taxpayers' money. I have also been 
supported financially through Federal and State grants that fund 
programs like CPEP and the BEST program.
    I urge you to take my experience into consideration. Where would 
students like me be without the help of Federal grants and the support 
of Federal, State and local programs? I represent the interests of 
students all across America who want to succeed in math, science and 
engineering. More importantly, I represent those students interested in 
math, science and engineering who want to become teachers. Let's give 
them a way to get there.
    The PACE bill will help efforts to recruit qualified math and 
science teachers into teaching, particularly in hard-to-staff schools. 
In addition, the bill will afford current teachers the opportunity to 
obtain advanced degrees in their subject areas. While these are 
important steps, I believe more is needed, including assistance for 
other teachers once they are in the classroom, such as mentoring for 
new teachers and support for teachers taking leadership roles. We also 
need to look at the issue of school infrastructure. Even the most well 
prepared teachers, for example, cannot provide the best possible 
opportunities for students to learn without adequate facilities. This 
is particularly true for math, science and technology. Many of our 
public schools, particularly in urban areas, lack the most basic 
physical resources, including up-to-date laboratories.
    Thank you again for giving me the opportunity to share my 
experiences with you. I am very proud of the work I do and the success 
of my students. If you are ever in the Hartford area, I encourage you 
to come see our school in person.

    Senator Alexander. Senator Bingaman.
    Senator Bingaman. Thank you very much, Mr. Chairman, for 
organizing this hearing and your commitment on this set of 
issues. It has been outstanding to watch the progress you have 
been able to make and it has been a pleasure to work with you 
on that.
    Let me ask, first, Secretary Garcia, I first commend you 
for the national recognition that you have achieved and New 
Mexico has achieved for the challenging academic standards that 
we have adopted and the rigorous teacher licensure requirements 
that we have adopted in New Mexico. I think that is very 
commendable.
    You say in your statement that we have done some things 
just recently, and I gather that is in the recently completed 
legislative session there in Santa Fe, to create a Math and 
Science Bureau within the Public Education Department, also to 
make a significant investment for teacher professional 
development in math and science summer institutes. You also 
indicated significant increases in the area of Advanced 
Placement programs. Could you just elaborate a little on any of 
those that you would like to?
    Ms. Garcia. Thank you, yes. Mr. Chairman, members of the 
committee, Senator Bingaman, we have passed a Math and Science 
Act. The legislature passed that this last session. With that 
will be $3 million that we will be partnering with the 
universities and also the labs to provide professional 
development in the area of math and science in terms of summer 
institutes to better prepare our teachers to teach to these 
rigorous standards and also use some of the latest pedagogy and 
infusing technology in their instructional technique.
    We also created a Math and Science Bureau within the 
Department. This is a result of the math and science town hall 
that we had in our State. That was one of the recommendations, 
that we elevate that in our agency to provide more professional 
development opportunities and technical assistance in a number 
of areas, whether they are aligning textbooks to the standards, 
etc., in our State, and we will have a bureau chief 
specifically for this area.
    And then the third thing--I forgot what you had asked me 
about.
    Senator Bingaman. The Advanced Placement.
    Ms. Garcia. Advanced Placement. We were not as--we had a 
recommendation for $2 million. Unfortunately, we were only 
funded for about $700,000. I want to be able to package this 
again next year and really push, because we find that Advanced 
Placement not only helps the students, it is a tremendous 
professional development tool for the teachers and it improves 
all the courses that they teach, and what we have found is that 
they also help their colleagues and their school improve their 
teaching pedagogy. So again, I want to thank you for your 
efforts in helping support Advanced Placement, but we still 
have a ways to go in our State.
    Senator Bingaman. Mr. Chairman, let me just make--thank you 
very much for the answers. Let me just make a general 
observation. I think we have made some good progress in getting 
math and science education on the national agenda. The 
President has done that with his statements in the State of the 
Union Speech.
    I guess one concern I have got is that there doesn't seem 
to be, at least so far, the commitment of resources that is 
going to be needed to make any significant change in the way we 
are going at this. I think all of these witnesses are reporting 
on progress that they are involved in and they were sort of 
chosen because of progress they are involved in. But when you 
talk about the great breadth and width of this country, we have 
got an awful lot of teachers out there who are not going to 
have resources expended on their development the way we are now 
going forward.
    I don't know if that is a fair criticism, but I hear the 
story from the University of Texas, the University of 
Pennsylvania. Those are very good stories, very good 
initiatives. I just look in our own State. We have most of our 
teachers coming out of our universities are not going to those 
universities. They are coming out of universities that are not 
equipped currently to provide that kind of instruction in math 
and science, and I am wondering if we can take the models that 
are there at those schools and slim them down to something we 
could actually get replicated in our schools, in our 
universities which are turning out the vast numbers of teachers 
that are coming out. That is the concern I have. I don't know 
if either of the witnesses would want to comment on that, but I 
would be interested in their views.
    Ms. Rankin. I think scale-up is always a challenge, but I 
do think UTeach could be replicated. I think one of the big 
things that we did was to incorporate experienced excellent 
math and science teachers as part of the faculty. That was 
critically important and it really informs the program. The 
other thing that was really important was to incorporate field 
experiences and recruitment of math and science majors by 
getting them to try out teaching. We give two 1-hour courses at 
the very beginning of the program that just focus on how you 
teach. The Master Teachers that we employ train the students to 
go out and give science lessons in pairs four times for the 
first semester in elementary school and then in middle school 
and it captures them and gets them into it.
    I think you can do this at Research I universities like the 
University of Texas across the country and really ramp up the 
program, but at smaller places where you have challenges with 
actually the students getting mastery of the math and science, 
I think there, you need to focus, along with these other 
elements, on enriching the math and science curriculum, and I 
think there are ways to do that.
    In fact, Treisman has some great theory about this that we 
have implemented at UT-Austin that works extremely well, 
giving, I guess, immersion and enrichment in math and science 
curriculum with a lot of mentoring and a lot of practical 
applied problems so that they really see the relevance of the 
math or whatever to real life. It seems to--we have a major 
program in our college for kids coming in with poor backgrounds 
in math and science. It has been very effective.
    So I think it can be ramped up, but I think you have to 
focus on the best practice and really try to incorporate it.
    Mr. Dai. Senator Bingaman, I think you really hit on a very 
important question. Just like Secretary Garcia noted, how to 
involve the institutions of higher education in this effort is 
a very important one. I actually think that there is a 
widespread recognition by faculties in these institutions of 
higher education that there is a crisis in science education at 
present in this country and people actually are eager to 
contribute.
    I will speak from my own experience. We actually have 
schools like Columbia University, the University of Maryland, 
Boston University, and also the University of St. Louis in 
Missouri. They all came to us and they wanted to replicate the 
program. But the issue is that there has to be some financial 
support, because this is an added function to the existing 
research and teaching missions of these universities. So this 
is where the PACE Act can assist.
    Senator Bingaman. Thank you very much.
    Senator Alexander. Dr. Garcia.
    Ms. Garcia. Yes, thank you, Mr. Chairman, Senator Bingaman, 
members of the committee. Just very quickly, the Teach for 
America program has been a real wonderful infusion of 
motivated, excited teachers that have helped us in a lot of our 
Native American communities, and perhaps with that existing 
program, that they could try to recruit more math and science 
majors, because it appears that the training that they get in 
their summer prep program before they go out into the schools 
seems to be very strong and we seem to be getting good results 
from those classrooms.
    Senator Alexander. Thank you. I want to acknowledge that 
Senator Bingaman is the principal Democratic cosponsor of the 
PACE Act and joined in the letter to the National Academy of 
Sciences asking for it and has been the principal advocate, 
along with Senator Hutchison, I guess, on the Republican side 
of Advanced Placement courses in the Senate.
    Dr. Vagelos, can you summarize briefly the process that the 
Augustine Committee used to identify these 20 recommendations 
you have made to us? Basically, our question to you in the 
report was, tell us exactly what we need to do as Federal 
policymakers to keep our advantage in science and technology 
over the next 10 years.
    Mr. Vagelos. Right.
    Senator Alexander. ``The Gathering Storm'' report was the 
answer to our question. How did you come up with those things 
and how many things were there?
    Mr. Vagelos. That is interesting. You mentioned that there 
were 21 people who were invited to the committee. Twenty people 
put down what they were doing for the entire summer, 10 weeks, 
actually, to start reviewing all literature, and we started by 
pulling together information from about 40 experts in the 
field, all the fields that we were to cover, that is, K through 
12 education, which was identified by the committee as the 
number one priority to keep us competitive internationally, 
higher education, research, and policies.
    So we brought together experts in each of those four fields 
and we distributed questionnaires in advance as to what they 
thought were the important things to go forward. We circulated 
tons of information of studies that had been done in the past 
with recommendations. So we worked through that through the 
summer and then we had one major meeting in Washington several 
days where we talked with each other and we heard all the 
experts, pooled that material, and then we met as a committee 
on really phone meetings to come up with our recommendations.
    Then we said, what are the most important things that we 
can do, and as I said earlier, K through 12 was the number one 
priority and each of those is in priority order. But doing K 
through 12 was not enough. We then had scholarships for science 
and math and engineering and technology at the universities, 
scholarships for that, fellowships to follow, and once these 
people were to finish, they had to have places to work, so we 
recommended a sharp increase in research funding and equipping 
the laboratories, re-equipping the laboratories that were out 
there and had often been built 25 years ago, were not up to 
date and competitive with our international colleagues.
    And finally, focusing on policies also that would support 
the whole system. So it was a very tedious and vigorous process 
that was done with enormous effort of these 20 people who 
responded. The hope is that the whole package would go as is, 
that is, all of the K through 12--as I mentioned, both the 
shorter-term that affect many people, the large numbers of 
current teachers, and frankly, the summer institutes would 
cover 250,000. So they are large numbers.
    And each of these programs, which I think are the core of 
bringing up--getting the teachers who have a fundamental 
understanding of the content in both the undergraduate program 
of the UTeach--by the way, that has been just picked up by 
California, as you know, and they are going to be putting out 
1,000 of these per year, so the replication is catching on 
quickly.
    The Master's program, these are smaller by necessity 
because people have to learn to do them, and they will produce 
perhaps 10,000 students per year, and it is a long time before 
you impact the total teaching. I think Tom Luce used the number 
235,000 teachers out there in math and science, not counting 
the lower grades.
    So the program is inclusive----
    Senator Alexander. Before my time expires, let me ask one 
quick question for Dr. Rankin----
    Mr. Vagelos. Yes.
    Senator Alexander. If you need to wrap up, go ahead.
    Mr. Vagelos. I essentially think that the proposal is great 
and we wish you luck.
    Senator Alexander. Thanks. Dr. Rankin, would the UTeach 
program include community colleges?
    Ms. Rankin. I think it could. I think you could----
    Senator Alexander. What would be the pros and cons?
    Ms. Rankin. Well, I think the challenge would be the math 
and science training side of it, and you would have to figure a 
way into the program. In my written testimony, I have put a 
description of the program I just referred to that we have used 
at the University of Texas for at-risk students. I think you 
could build that in, but one of the things that makes UTeach so 
successful is that we are drawing on students that have a 
strong background in math and science. The community colleges, 
I would say, are a mixture of those that can and would be 
challenged to deliver that level of instruction, and the 
student population would be a mixture, too. So you would have 
to find ways, and ours might be one, to enrich that and bring 
them up to speed.
    You know, I think it is important not to be discouraged by 
the fact that these teacher preparation programs like UTeach 
can't train massive numbers right away. These people can seed 
the school that they enter and really change the thinking and 
the focus of individual schools, as well, that we are training 
teacher leaders here and the Master's programs do the same 
thing, and these people can have a multiplier effect within 
their own schools, as well.
    So I think we just need to start and do what we can at all 
different levels.
    Senator Alexander. Thank you.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman. I want to commend 
Dr. Rankin. You all have broken the code. For years, I was so 
frustrated with colleges of education in the State of Georgia 
for being so distant from the public schools that they were 
training teachers to teach in an environment they were totally 
unprepared to go into, and I want to call everybody's 
attention--I don't know what page it is, but Dr. Rankin 
couldn't get to it in her oral statement--they hire nontenured 
former high school math and science teachers to come teach at 
the Department of Natural Science so they can expose these 
future teachers to what the real world is like.
    Unfortunately, most of America's colleges of education 
think that Ozzie and Harriet and Wally and the Beaver are the 
typical American family, but they aren't anymore. These 
teachers are going into schools that are totally different and 
very diverse and very challenged, and I really commend you on 
that. I think that has got to be part of the secret to your 
program.
    Second, how in the world did you convince the UT Department 
of Education to let the Department of Natural Sciences give 
degrees in education? How did you break that away from them?
    Ms. Rankin. Well, this was a big deal at the beginning, but 
education has been a great partner with us, actually. But Texas 
is one of, I think, something like 33 States where there is a 
State law that mandates that people who teach, at that time in 
high school, had to have a degree in their discipline. So, in 
fact, it was our responsibility. Although education was 
providing the actual certification tests, we were supposed to 
have a teacher preparation program that trained these students 
and we just hadn't. I mean, the law was enacted in the early 
1980s, but we didn't really start doing anything serious about 
it, creating a specific successful program until much later.
    So I think actually that law is important in getting math 
and science, or colleges of arts and science, whatever, 
involved in this process. Where that doesn't exist, most of 
this training still happens in colleges of education, some of 
which are wonderful, but some of which are not.
    Senator Isakson. And one of the testimonies of this 
program, Mr. Chairman, I think it says in your testimony that 
over 80 percent of the UTeach teachers who went in the 
classroom in 2001 are still teaching.
    Ms. Rankin. That is right.
    Senator Isakson. Well, that is the reverse of the national 
average. Eighty percent have usually quit after 3 years, and I 
would say it is because of what you have done in that 
structure.
    Second, your Texas interdisciplinary plan, and I was 
reading fast to get to that----
    Ms. Rankin. Yes.
    Senator Isakson. [Continuing]. But I commend you on that 
because there, you are saving souls that a lot of times are 
cast aside when they really are redeemable that are coming to 
the university. Are many of those coming into the UTeach 
program after they graduate from school?
    Ms. Rankin. Some do. Some do, yes. In fact, it is 
simultaneous. They can enter both programs at the same time, 
and many of the UTeach courses actually include TIP students 
anyway, because we try to have small classroom experiences 
whenever we can for the UTeach students, as well.
    Senator Isakson. In a way, Ms. Flanagan is almost an 
example, because I think in your testimony you talk about 
because of your language difficulties, you didn't score 
necessarily that well on the SATs, but you were highly inclined 
toward engineering and math and science, and because of your 
mentors, Mr. Fuentes and the other gentlemen that you 
mentioned, she made it.
    Ms. Rankin. Absolutely. I thought of that when she was 
speaking.
    Senator Isakson. Yes.
    Ms. Rankin. I thought, she could have been in one of our 
programs. It was a great example.
    Senator Isakson. What they are doing with this TIP program 
is they take these kids who you would statistically identify as 
an underachiever or not ready for prime time or whatever you 
want to call it and they put them in the study skills and 
critical thinking classes early on to get them to develop, and 
then they come out highly competitive students, graduating 
under UTeach and other disciplines in the university. And she 
didn't pay me to say this or anything----
    Ms. Rankin. I really appreciate you bringing this up.
    Senator Isakson. You really have broken the code in what 
you all are doing there, because higher education, which I am a 
big fan of, I sometimes don't sound like it, but for years, I 
used to say they ought to make tenured teachers of education 
teach in the public schools once every 5 years and that would 
cure our educational problems. You can't make them do that, but 
you certainly can take what you are doing and do a remarkable 
exposure of those students so that when they go to the 
classroom, they are ready. So I commend you on what you are 
doing.
    Ms. Rankin. Thank you, Senator. I appreciate it.
    Senator Isakson. Thank you, Mr. Chairman.
    Senator Alexander. Senator Ensign.
    Senator Ensign. Thank you, Mr. Chairman. I want to take a 
little different look, because I think that a lot of us have 
the same goals, but we have to keep in mind our past 
experiences up here and remember the law of unintended 
consequences. We have got a lot of momentum now going forward 
on the whole issue of competitiveness and bringing that to our 
schools. Dr. Dai, you talked about the 70 hours of subject 
matter classes that Taiwan requires in each discipline a 
teacher teaches. Dr. Rankin, what is the requirement for 
UTeach--what is the number of hours required in their core 
subject?
    Ms. Rankin. I can't tell you that. I am dean of the college 
and I can't tell you. It is different for all the different 
majors. They basically do a regular math or science major----
    Senator Ensign. OK.
    Ms. Rankin. [Continuing]. With not much compromise, 
actually, and then they interlace the pedagogy courses with 
them. The interesting thing that we have seen is that because 
the pedagogy courses are really focused on how you teach math 
and science and they are all mixed in----
    Senator Ensign. Right.
    Ms. Rankin. [Continuing]. These kids are teaching what they 
are learning, and so that reinforces it. It has been great.
    Senator Alexander. I think that you are absolutely on the 
absolute right track. I agree with Senator Isakson. I have had 
many talks with our university presidents about this particular 
issue. Everybody has had these conversations across the country 
because we see so many of our kids not learning, not being 
motivated to go into science and math, and frankly, the 
teachers are not nearly as skilled because of this separation. 
Because of the idea that you have to get a teaching degree from 
the college of education, we ended up with people who are not 
skilled in their level.
    The question I had for maybe both Dr. Dai and Dr. Rankin is 
that: let us say I have an engineering degree, or I have a 
physics degree, or I have a math degree, do you have anything 
within that type of a program that then can take that person, 
and accelerate teaching, so that they can get a teaching 
certificate? Because most of them still have to go through the 
departments of education in most States where they may learn 
how to teach, but not necessarily how to teach math and science 
again.
    Ms. Rankin. We do have a postbaccalaureate entry. Actually, 
one of the things I want to do is----
    Senator Ensign. And how long does that take?
    Ms. Rankin. It takes a year, and one of the things I want 
to do--in fact, if funding could support a person doing that, 
that would be a very good thing. But I would also like to 
shorten that with UTeach. That is one of the things that we are 
going to focus on in the next sort of go-around.
    Senator Ensign. Because I think that we have got a lot of 
people out there right now that maybe have had a 20-year or 30-
year career. You had help at the beginning of your career, Ms. 
Flanagan, but maybe somebody else wants to do it 20 or 30 years 
from now as a second career. Maybe they say, I would really 
like to teach, but I don't want to go through a 4-year 
program----
    Ms. Rankin. Absolutely.
    Senator Ensign. I have subject matter knowledge and skills. 
I need to be taught how to teach, but I don't want to go 
through a long program. I know some of you want to respond, but 
I just want to get this other point out, and that is because in 
looking at the recommendations that have come out about, for 
example providing $20,000 per year, we must first look at 
unintended consequences.
    Let us say, for instance, you gave these $20,000 
scholarships to students. In the State of Nevada, it is $3,000 
per year, on average, for in-State tuition. Do we perversely 
incentivize other States that have lower tuition costs to look 
and determine that they could get a lot more money if they 
raised their tuition because the Federal Government will foot 
the bill. We know that the cost of higher education is 
outstripping inflation or almost any other measurement in our 
economy, other than maybe health care. The costs of higher 
education have skyrocketed and the justification seems 
difficult to find. Would we perversely incentivize some of the 
colleges like the University of Nevada to increase tuition by 
providing these scholarships? Would that, in turn, lead to 
other students not being able to afford the school, and so then 
we would have to increase Pell Grants and on and on and on. 
Would you like to comment on that, Dr. Vagelos?
    Mr. Vagelos. Well, of course, there are enormous 
differences between the State universities and private 
universities----
    Senator Ensign. Absolutely.
    Mr. Vagelos. [Continuing]. In tuitions, and so the decision 
was made to make up to $20,000. Will that incentivize the 
lower-cost tuition universities to raise them? Well, it could. 
It could. The idea is, of course, to keep the tuitions to the 
lowest possible number so that we will not lose students who 
cannot even reach those numbers. But it is a possibility.
    Senator Ensign. You see that. I just wanted to raise it, 
because I think that it is a possibility, and we should look at 
all possibilities whenever we are looking at new programs.
    Mr. Vagelos. Even now, the annual tuition in the State 
universities is outstripping inflation and they are no longer 
small numbers. They are large numbers that are excluding some 
students.
    Senator Ensign. Does somebody else want to comment? My time 
is up, but if they have----
    Senator Alexander. Go ahead if you have any other 
questions----
    Senator Ensign. I don't have any other questions, but they 
have their hands up like they wanted to respond to something 
else I said, so if either one of you----
    Senator Alexander. Please do.
    Ms. Garcia. Thank you, Senators, Mr. Chairman, Senator 
Ensign. I just wanted to comment on alternative licensure. New 
Mexico does have alternative licensure for those who have 
degrees in a content area. It is 12 hours, and they take 12 
hours of pedagogy while they are actually in the classroom. 
However, I am not certain that the pedagogy is the best 
methodologies for math and science and so I think that if there 
could be funds to help incentivize those programs for our 
universities, that would be terrific.
    Senator Ensign. OK. On the funding of these programs--
looking at perverse incentives--I think one of the things we 
also have to look at is where programs are already funded like 
the University of Texas. We have a lot of programs out there. 
Do we just need to reprogram the programs or do we need to 
start new programs? I think that is a big question we need to 
ask up here as we are going forward. We do have limited 
dollars, and to maximize those dollars, we have to look at 
those kinds of questions.
    Ms. Flanagan. Connecticut has a program called the ARC 
program and it is for noneducation professionals who have a 
Master's degree and would like to change their careers, and 
this is a 6-week intensive summer program. They meet from eight 
in the morning to 5 o'clock in working groups and are given 
curriculum instruction, development, assessment, all the 
pedagogy that they need, and then they go----
    Senator Ensign. Are they doing it in what they talk about, 
though, in how to teach math and science?
    Ms. Flanagan. Yes, correct.
    Senator Ensign. And not just how to teach?
    Ms. Flanagan. How to teach math and science. English is 
also a component, so it is English, math, and science, and they 
go into a 2-year program where they have mentors and, you know, 
whatever city they go into, the city does support these people.
    Senator Alexander. Thank you. Thank you, Senator Ensign, 
and thanks to all. I just have one question I would like to 
ask. Senator Ensign, do you have any other questions that you 
would like to pose?
    Senator Ensign. No, and I have to get over to the Capitol, 
unfortunately. Thank you once again, and I wish we had more 
time. This is such a fascinating subject and we look forward to 
the hearings tomorrow, as well.
    [The prepared statement of Senator Ensign follows:]

                  Prepared Statement of Senator Ensign

    First I would like to thank Senator Alexander for holding a 
hearing on this important issue. He and I share the common goal 
of bringing competitiveness and innovation back to the 
forefront of America's education system. Numerous reports have 
been issued lately that emphasize the importance of math and 
science education for our students and training and 
professional development for our teachers as key to the future 
of our Nation. The United States has been leading the world in 
both competitiveness and innovation for some time, but we are 
quickly losing our advantage.
    The purpose of this hearing is to review legislation that 
is designed to keep the United States at the forefront of 
competitiveness and innovation, especially in science, 
technology, engineering and math. Senator Alexander has 
introduced the ``Protecting America's Competitive Edge'' Act, 
commonly known as the PACE Act. This legislation represents a 
broad, and expensive, expansion of Federal programs targeted at 
improving math and science education and increasing the number 
of math and science teachers in this country. I have 
introduced, along with Senator Lieberman, the National 
Innovation Act. This legislation is based on the findings of 
the Council on Competitiveness and their National Innovation 
Initiative.
    I would like to address some of the key questions that were 
presented for this hearing.

    <bullet> What are the proposals of S. 2198? Where did they 
come from? Why were they proposed?

    The National Academies of Sciences (NAS) was asked by 
Senator Alexander and Senator Bingaman to respond to certain 
questions related to science and technology and how the United 
States can ``successfully compete, prosper, and be secure in 
the global community . . .'' The committee assembled by the NAS 
was given only 10 weeks to come up with their recommendations. 
To my knowledge, many of their recommendations were made 
without review of current Federal programs or initiatives. It 
would be my hope that we could review existing Federal programs 
to determine if they are meeting a national need and if they 
are meeting their stated goals and objectives. We must also 
ensure that any program, whether old or new, has effective 
metrics in place to measure achievement and effectiveness.
    I must commend the NAS study for the recommendation they 
had of reallocating existing Federal funds to meet new and 
emerging needs. I was shocked that the Federal Government 
currently funds over 207 math and science related programs. 
This shotgun approach only scatters precious Federal resources 
across the country with little accountability for their usage 
or effectiveness. I would propose using a rifle approach that 
carefully allocates resources to our greatest areas of weakness 
and uses programs and approaches that have proven records of 
effectiveness. It is clear based upon the testimony of today's 
witnesses that there are proven programs in the field; we must 
now link Federal funding sources with those effective programs.

    <bullet> What are the administration's views? Are there 
other proposals that should be considered?

    President Bush has come out with a very strong proposal 
with his American Competitiveness Initiative. This proposal 
focuses resources on proven programs that best help our 
students and teachers. As I mentioned before, I have introduced 
legislation with Senator Lieberman, the National Innovation 
Act, that builds off of current Federal programs. However, this 
legislation does not address the teacher shortage issue in the 
areas of math and science.

    <bullet> What existing Federal programs can be re-shaped to 
focus on this effort?

    According to the Congressional Research Service, the 
Federal Government currently spends approximately $4.1 billion 
every year to support a broad array of teacher recruitment and 
retention programs. These programs range from supporting 
alternative routes to teacher certification to loan forgiveness 
for teachers to traditional teacher recruitment activities. 
While I certainly understand the need to attract individuals to 
the profession of teaching overall, it is apparent that more 
needs to be done to attract individuals into teaching math and 
science. In Clark County we face a teacher shortage every year, 
but the shortage is felt the most in the subjects of math and 
science.
    I am interested in learning more about what the Federal 
Government can do to better tailor some of these programs to 
attract students into the fields of math and science. How can 
the Federal Government work with programs that are in 
existence, like UTeach?
    Every one of us here today needs to take a close and very 
critical look at the report issued by the Government 
Accountability Office on the $2.8 billion that is spent on 207 
math and science related programs. Congress needs to take a 
very close look at where the Nation's priorities lie when 
determining which of these programs receives Federal funding. 
We need to look at the National Academy of Sciences report and 
the National Innovation Initiative for ways to improve our 
focus and fund proven and effective programs.

    <bullet> How could S. 2198 be improved?

    I believe this legislation could be improved by taking the 
concepts presented in PACE and embedding them in existing 
Federal programs. We must try this first before creating a 
myriad of new Federal programs. In addition, we must find ways 
to pay for these new programs. I would recommend looking at the 
education programs we already have, especially those noted in 
the GAO report, and determining which programs are effective at 
meeting their goals and which are not. We also need to look at 
what programs have met their original purpose and are obsolete. 
Finally, we need to ensure that every program funded by the 
Federal Government includes metrics so we can measure 
effectiveness and hold them accountable.
    If the United States is going to maintain its' competitive 
edge and remain the world's super power then we need to take 
these reports seriously. We must look at this issue as not only 
an education issue, but as a tax issue and a commerce issue. We 
need to look at what the Government is doing to both hinder and 
help innovation and competitiveness inside and outside of the 
Government. In my opinion we cannot simply throw money at this 
problem. We must take time and ensure that these programs are 
given metrics and that their effectiveness is proven before 
investing in them.
    I applaud the work that Senators Alexander and Bingaman 
have done with their PACE Act and look forward to working with 
them. Together I hope we can find the best and most workable 
solution for getting more math and science teachers into the 
classroom so we can better help our students achieve great 
results.
    Senator Alexander. Good. Thank you for so much of your time 
today.
    Dr. Garcia, one of the PACE recommendations is to provide 
assistance to national laboratories as well as colleges and 
universities to host 1- or 2-week seminars for up to 50,000 
math and science teachers for hands-on training in professional 
development. So my question is, since you have two national 
laboratories in your State, do you think it is a good idea to 
center some of the summer institutes for math and science 
teachers at national laboratories? What would be the strengths 
of that idea, or weaknesses?
    Ms. Garcia. Mr. Chairman, I think that our history in New 
Mexico in partnering with the labs in education has been very 
successful. The one that we have with the Los Alamos National 
Laboratory and the Math-Science Academy in Northern New Mexico, 
those teachers that have been in that program are getting 
better results with students that traditionally have not 
performed well in math and science. So I would say that our 
experiences with both Sandia National Laboratory and the Los 
Alamos National Laboratories would indicate that this would be 
a good strategy.
    Senator Alexander. I want to thank each of you for coming. 
I want to close the hearing by reading something I mentioned at 
the beginning, because this really struck me, and we have had a 
lot of Texas here today, but I think it is important while we 
are talking about how far we have to go to show that there are 
plenty of examples around today that show that we can certainly 
get there if we apply the right brainpower to the task.
    According to one of Dr. Rankin's scholars, Mr. Treisman, in 
1999, 13 States participated as countries in a re-
administration of the Eighth Grade Third International Math and 
Science Study. Now, this is probably the best known 
international study of math and science, if I am not mistaken. 
It is the one that I see most often cited. It is well regarded 
and countries compare their 8th graders in math and science.
    Some States, like Texas and Michigan, scored at very high 
levels. Texas, whose sample contained more than 50 percent 
African-American and Hispanic students, performed at a 
significantly higher level than most European countries. Now, 
that has come after 15 years, at least, of effort in Texas. But 
that is a very important statistic to me, that in our second-
largest State, where more than half of the students are 
Hispanic or African-American, on 8th grade comparisons in math 
and science, those students do better than 8th grade students 
in most European countries.
    So we have a long way to go in many parts of the United 
States, but we do have clear evidence that we can get where we 
want to go.
    I want to thank each of you for your time. Some of you have 
come a long way to be here. I want to invite you, if within the 
next week you have any specific recommendations on the PACE 
legislation or the comments on math and science teaching you 
would like for us to make part of the record, if you could get 
it to us, we would be glad to include it in the record.
    Thank you. We will begin tomorrow's hearing at 10:00 a.m. 
on the remainder of the PACE K through 12 proposals. The 
hearing is adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                 Response to Questions of Senator Enzi
                         responses by tom luce
    Question 1. As part of the President's American Competitiveness 
Initiative, an Adjunct Teacher Corps has been proposed to encourage 
math and science professionals to become adjunct high school teachers. 
How would this proposal be aligned with the requirements for highly 
qualified teachers under No Child Left Behind?
    Answer 1. This initiative will be consistent with the principles of 
NCLB's highly qualified teacher requirement--teachers must know the 
subject they teach. This new initiative would create an Adjunct Teacher 
Corps that would draw on the skills of well-qualified individuals 
outside the public education system to meet specialized teaching needs 
in secondary schools. The initiative would concentrate on helping 
schools find experienced professionals who would be able to provide 
real-world applications for some abstract mathematical concepts being 
taught in the classroom and, in some cases, provide individuals to 
teach temporarily in hard-to-fill positions.
    Funds would be used to make competitive grants to partnerships of 
school districts and States (or of school districts and appropriate 
public or private institutions) to create opportunities for 
professionals with subject-matter expertise to teach secondary-school 
courses in core academic subjects, particularly in mathematics and 
science. Adjunct teachers might teach one or more courses on the school 
site on a part-time basis, teach full-time in secondary schools while 
on leave from their jobs, or teach courses that would be available 
online or through other distance learning arrangements.

    Question 2. Training an additional 70,000 advanced placement/
international baccalaureate teachers over 5 years is one part of the 
President's American Competitiveness Initiative. How will concentrating 
on AP/IB teachers improve science and math education for all students 
at every level of the K-12 education system?
    Answer 2. The program helps teachers receive the training needed to 
teach Advanced Placement (AP) and International Baccalaureate (IB) 
math, science, and critical language courses. Program funds also 
support competitive grants to State educational agencies to pay AP and 
IB test fees, as well as State and local efforts to make pre-advanced 
placement and advanced placement courses more widely available to all 
students. AP and IB programs increase the rigor of high school 
curricula and offer a proven avenue to postsecondary success.
    Also, our proposed Math Now for Elementary School Students and Math 
Now for Middle School Students programs will help to strengthen math 
instruction in the early grades and middle school, better preparing 
students for AP and IB programs in high school.
                        response by hai-lung dai
    Question. How many middle school teachers and high school teachers 
have participated in your program? Are you aware of any programs 
similar to the Science Teachers Institute that provide opportunities 
for elementary teachers?
    Answer. The Master of Chemistry Education program designed for 
training in-service high school science teachers was inaugurated in 
2000. Up to now, more than 120 teachers, in 6 cohorts, have enrolled in 
this program. The fifth Cohort will graduate after this summer. The 
graduation rate of the teachers from this 10-course, 26-month program 
is about 85 percent. Of the 120 teachers who were all teaching or 
assigned to teach chemistry at the time of their enrollment, 
approximately three quarters did not have chemistry as either major or 
minor in their college studies. About 40 percent of the teachers were 
from urban schools/districts and 60 percent from suburban schools/
districts. Teacher attendants were mainly from the four State areas of 
Pennsylvania, New Jersey, Delaware and Maryland, some as far as central 
Pennsylvania and northern Jersey and one from the State of Oregon. Many 
of the graduates from this program have been designated as master 
teachers or teacher leaders in their schools.
    The Master of Integrated Science Education program designed for 
training in-service middle school science teachers took in the first 
cohort of 24 teachers in 2005.
    The two programs will take in another 40 teachers in the 2006 
cohorts.
    The funding of the Institute at present will support teacher 
enrollment till 2009. By that time it is expected that these programs 
will have graduated altogether 270 teachers--170 high school science 
teachers and 90 middle school science teachers, directly impacting on 
the education of more than 30,000 high and middle school students 
annually.
    As far as we know, there is no master degree programs with content 
knowledge focus for elementary school teachers. The middle school 
teacher program can in principle be modified for such needs.
                        responses by roy vagelos
    Question 1. How many principals have participated in the MISE 
program during the past year and how do you measure its effectiveness?
    Answer 1. Principals are responsible for managing and supporting 
school-based instructional programs; they have an integral role in the 
quality of teaching and learning taking place in mathematics and 
science classrooms in their school. Principal attitudes towards, and 
ability to support, mathematics and science teaching and learning can 
be important factors in the development of quality mathematics and 
science instructional programs. One of the goals of the Merck Institute 
for Science Education (MISE) is to develop principals into effective 
managers and supporters of mathematics and science education in their 
schools. This goal is to be accomplished through fostering of 
leadership structures and relationships, and development of the 
capacity of principals through Administrator Institutes and other 
professional development opportunities. Over the past year, MISE has 
worked with approximately 125 school administrators.
    Data sources for assessing MISE's progress in leadership 
development come from principal and teacher surveys and interviews; 
observations of professional development activities; and principals' 
evaluations of their professional development.
    Our principals were offered two professional development 
opportunities related to mathematics and science instruction. The 
Lenses on Learning program is a series of workshops with a focus on 
educating principals to recognize critical thinking among students 
around mathematics. Our Administrators' Institute was a workshop 
focused on building a shared view of quality mathematics and science 
instruction, and included activities on interpreting and using student 
achievement data in mathematics and science.

The Lenses on Learning Program

    During the past year, a group of 25 elementary and middle school 
principals met regularly to participate in a professional development 
program developed by the Education Development Center. Using Lenses on 
Learning materials, principals viewed and discussed videotapes of 
mathematics classes, focusing their attention on the mathematical 
content of the lessons and students' mathematical thinking. External 
evaluators observed a number of the sessions and interviewed a subset 
of the principals to shed light on the program's impacts.
    Quantitative data on the impacts of this program also have been 
collected in collaboration with researchers at the Education 
Development Center. In the fall we recruited 65 principals who took a 
Leadership Content Knowledge (LCK) survey. This survey gathers 
information on principals' professional background and measures the 
nature of principals' beliefs about how children learn mathematics and 
how it should be taught. In addition, the survey measures the depth of 
mathematics content knowledge. Subsequently, we randomly assigned 25 of 
these principals to an intervention group. These principals were 
offered the Lenses on Learning course during the school year. The 
remaining 40 principals were assigned to a control group and received 
no intervention. At the end of the school year principals in both the 
intervention and control groups took the LCK survey again.
    We also conducted a study to obtain an indirect measure of change 
in principals' instructional leadership. This involved administering a 
survey to a sample of teachers in the fall and again in the spring. The 
sample contained teachers from schools led by principals in the 
intervention group as well as the control group. This survey was 
designed to capture teachers' perceptions of their principals' 
attitudes and practice of classroom observation and teacher supervision 
as related to mathematics instruction.
    The data from the principal and teacher surveys are currently being 
analyzed and should be available within the next 6-8 weeks.

Administrators' Institute

    This past year MISE once again sponsored an Administrators' 
Institute which was attended by nearly 100 principals and vice 
principals. Administrators participated in sessions designed to help 
them understand the vision for quality mathematics and science 
instruction; learn how to utilize data more effectively to make 
instructional decisions at the school level; and engage in planning 
based on information discussed at the Institute. External evaluators 
observed the sessions and provided feedback on their effectiveness. In 
addition, interviews were conducted with a subset of the participants 2 
months later to note the value of the Institute to their role as school 
leader.

Principals' Attitudes and Beliefs

    The purpose of the professional development for principals is to 
help them support effective mathematics and science instruction in 
their schools. Annually, a questionnaire has been administered to 
principals to probe their attitudes and beliefs about mathematic and 
science teaching, and their preparedness to support teachers in these 
content areas. Analysis of the questionnaires indicates that the 
principals' attitudes and beliefs are becoming increasingly aligned 
with the vision of standards-based mathematics and science teaching.

    Question 2. What has MISE done to encourage other similar 
organizations to provide these types of experiences for principals?
    Answer 2. The Merck Institute for Science Education has actively 
disseminated information on its activities with principals using print 
materials and its Web site, and through presentations to national, 
State and local educator organizations. In addition, MISE staff has 
provided technical assistance in establishing programs to other, 
similar organizations.
         Response to Questions of Senator Jeffords by Tom Luce
    Question 1. Both national and international tests continually show 
that U.S. students do well through the 4th grade and then a decline 
begins. The decline becomes worse between grades 8 through 12. What are 
your recommendations as to how we can specifically improve grades 5 
through 8 in regard to math and science instruction?
    Answer 1. The Department's 2007 budget includes $380 million in new 
funding as part of the President's American Competitiveness Initiative, 
which focuses on improving the Nation's long-term economic 
competitiveness through new and renewed proposals to fund and promote 
science and math education, basic research, workforce development, and 
immigration policies.
    Specifically, the request includes:

    <bullet> $125 million for the Math Now for Elementary School 
Students initiative, modeled after Reading First, to implement proven 
practices in math instruction--including those recommended by the 
National Math Panel--that focus on preparing K-7 students for more 
rigorous mathematics courses in middle and high school.
    <bullet> $125 million for a new Math Now for Middle School Students 
initiative, based on the principles of the Striving Readers program, to 
support research-based math interventions in middle schools.
    <bullet> $10 million for a National Mathematics Panel, which will 
be formed in fiscal year 2006, to identify key mathematics content and 
instructional principles to guide the implementation of the Math Now 
programs. The request for 2007 would be used to carry out the panel's 
recommendations, including research on and dissemination of promising 
practices in mathematics education.
    <bullet> $5 million for Evaluation of Mathematics and Science 
Programs to conduct activities to improve the quality of evaluations of 
Federal elementary and secondary mathematics and science programs, as 
well as to evaluate such programs, with a focus on examining whether 
they are consistent with the principles of NCLB.

    Question 2. The New England Association of Schools and Colleges has 
found that one of the primary reasons this Nation's students appear to 
do poorly after 4th grade in math and science on international tests is 
that the U.S. sets up math and science curriculum completely different 
than most other nations. For example, in the U.S., calculus is usually 
taught in 12th grade and in other countries, it is taught in earlier 
grades. Thus, the international tests could be comparing apples to 
oranges. What are your thoughts on this?
    Answer 2. While it may be the case that the U.S. sets up math and 
science curriculum different than many other countries, the reality is 
that American students fall further behind many other countries as they 
move from 4th grade through 12th grade. On the most recent Program for 
International Student Assessment (PISA), American 15-year-olds 
performed well below the international average in mathematics literacy 
and problem solving. In addition, U.S. 12th graders perform well below 
the international average on the Trends in International Mathematics 
and Science Study (TIMSS) math and science general knowledge 
assessments.
    In fact, according to the National Center for Education Statistics, 
the topics that were included in the 12th grade TIMSS are typically 
covered in much lower grades--i.e., math assessment topics are 
typically covered in about the 7th grade and the science assessment 
topics are typically covered in about the 9th grade on average for the 
participating countries.
    The fact that U.S. students perform poorly on international 
assessments such as the PISA and TIMSS points to the need for increased 
rigor in our schools' math and science courses if students are to be 
prepared for work in the 21st century. Students need to be introduced 
to pre-algebraic concepts in elementary school so that they will be 
prepared to take and pass algebra I by the 8th grade. Supporting 
schools in this effort is the goal of the newly proposed Math Now 
programs. And, more students should have access to and be encouraged to 
take advanced math and science courses in high school. That is why the 
Department's fiscal year 2007 budget request includes a $90 million 
increase to support an expansion of Advanced Placement programs in our 
Nation's high schools.
             Questions of Senator Enzi to the Second Panel
                     question for dolores flanagan
    Question. Please give us a few examples of professional development 
experiences that have been especially meaningful for you and that 
increased the achievement of your students. What are three factors that 
these experiences had in common which made them stand out?
                      question for veronica garcia
    Question. As the Secretary of Education for your State, how do you 
support science and math education for all students? What advice would 
you give to your counterparts in other States?
                      question for mary ann rankin
    Question. From what I have read, the UTeach program is strictly for 
secondary school teachers. Now that it has proven to be successful, are 
there plans to broaden its scope to include middle and elementary 
school teachers? What's being done to bring your program to scale 
throughout the United States?

    [Editor's Note: Responses from Ms. Flanagan, Ms. Garcia, and Ms. 
Rankin were not available at time of print.]

    [Whereupon, at 11:55 a.m., the subcommittee was adjourned.]

                                    

      

</pre></body></html>
